No. __-____

In the Supreme Court of the United States
__________

GOVERNOR OF DELAWARE, PETITIONER
v.
JAMES R. ADAMS, RESPONDENT
__________
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

__________

PETITION FOR WRIT OF CERTIORARI
__________
RANDY J. HOLLAND
Wilson Sonsini Goodrich
& Rosati, PC
222 Delaware Avenue
Suite 800
Wilmington, DE 19801
(302) 304-7600
DAVID C. MCBRIDE
MARTIN S. LESSNER
PILAR G. KRAMAN
Young Conaway Stargatt
& Taylor, LLP
Rodney Square
1000 North King Street
Wilmington, DE 19801
(302) 571-6600

MICHAEL W. MCCONNELL
Counsel of Record
Wilson Sonsini Goodrich
& Rosati, PC
650 Page Mill Road
Palo Alto, CA 94304
(650) 493-9300
mmcconnell@wsgr.com
STEFFEN N. JOHNSON
BRIAN J. LEVY
Wilson Sonsini Goodrich
& Rosati, PC
1700 K Street, N.W.
Washington, DC 20006
(202) 973-8800

Counsel for Petitioner

i
QUESTIONS PRESENTED
1. Does the First Amendment invalidate a
longstanding state constitutional provision that limits
judges affiliated with any one political party to no
more than a “bare majority” on the State’s three highest courts, with the other seats reserved for judges affiliated with the “other major political party”?
2. Did the Third Circuit err in holding that a provision of the Delaware Constitution requiring that no
more than a “bare majority” of three of the state courts
may be made up of judges affiliated with any one political party is not severable from a provision that
judges who are not members of the majority party on
those courts must be members of the other “major political party,” when the former requirement existed for
more than fifty years without the latter, and the former requirement, without the latter, continues to govern appointments to two other courts?

ii
PARTIES TO THE PROCEEDINGS AND RULE
29.6 CORPORATE DISCLOSURE STATEMENT
The parties to the proceedings include all those
listed on the cover. No party is a nongovernmental
corporation.
LIST OF ALL PROCEEDINGS
DIRECTLY RELATED


Adams v. Carney, No. 1:17-cv-00181-MPT, U.S.
District Court for the District of Delaware.
Judgment entered May 23, 2018.



Adams v. Governor of Delaware, No. 18-1045,
U.S. Court of Appeals for the Third Circuit.
Judgment entered Apr. 10, 2019.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................i
PARTIES TO THE PROCEEDINGS AND
RULE 29.6 CORPORATE DISCLOSURE
STATEMENT ........................................................ ii
LIST OF ALL PROCEEDINGS DIRECTLY
RELATED ............................................................. ii
TABLE OF AUTHORITIES ....................................... vi
INTRODUCTION ........................................................ 1
OPINIONS BELOW .................................................... 3
JURISDICTION .......................................................... 3
CONSTITUTIONAL PROVISIONS
INVOLVED ............................................................ 3
STATEMENT .............................................................. 5
A. The history of Delaware’s political
balance requirements ....................................... 5
B. The parties to this dispute ............................... 7
C. The Elrod-Branti line of decisions ................... 8
D. The decisions below .......................................... 9
REASONS FOR GRANTING THE PETITION ....... 13
I. The Court should resolve the circuit
split over whether judges are policymakers under Elrod and Branti. ................... 13

iv
Page
A. Every other court to address the issue
has held that judges are policymakers
who fall outside the scope of Elrod and
Branti. ........................................................ 14
B. Common law judging has a significant
policymaking element. .............................. 18
C. Judges exercise other policymaking
authority. ................................................... 20
D. Balance in partisan affiliation is not
irrelevant to judicial decisionmaking. ...... 22
E. The Third Circuit’s reasoning would
doom many other statutory schemes
and conflicts with Elrod and Branti. ........ 24
II. Certiorari should be granted to protect
the States’ sovereign authority to structure
their own governing institutions and to
protect Delaware’s “vital interest” in a
balanced judiciary........................................... 27
A. Gregory requires applying a “less
exacting” standard to state constitutional provisions setting judicial
qualifications. ............................................ 28
B. In any event, the political balance
requirements would pass strict
scrutiny. ..................................................... 31
III. The court’s severability ruling is plainly
incorrect and should be reversed. ................. 36
CONCLUSION .......................................................... 38

v
APPENDIX TABLE OF CONTENTS
Page
Appendix A: Third Circuit Court Precedential
Opinion, dated April 10, 2019 ..................... 1a
Appendix B: Third Circuit Court Judgment,
dated April 10, 2019 .................................. 42a
Appendix C: Third Circuit Court Order
Denying Rehearing and Rehearing
En Banc, dated May 7, 2019 ...................... 44a
Appendix D: Delaware District Court
Memorandum Order, Denying the
Motion for Reconsideration and
Granting the Motion for Clarification,
dated May 23, 2017 ................................... 46a
Appendix E: Delaware District Court
Memorandum Opinion Clarifying
(and Restating in Large Part) its
December 6, 2017 Memorandum Opinion,
dated May 23, 2017 ................................... 61a
Appendix F: Delaware District Court Order
Granting Judgment to Defendant,
dated May 23, 2017 ................................... 83a

vi
TABLE OF AUTHORITIES

Page(s)

Cases
Adams v. Carney,
2018 U.S. Dist. LEXIS 105529
(D. Del. June 25, 2018) ........................................ 10
Ariz. State Legislature v. Ariz. Indep. Redistricting
Comm.,
135 S. Ct. 2652 (2015) .......................................... 29
Bauer v. Shepard,
620 F.3d 704 (7th Cir. 2010) ................................ 22
Beattie v. Beattie,
630 A.2d 1096 (Del. 1993) .................................... 19
Bernal v. Fainter,
467 U.S. 216 (1984) ........................................ 28, 30
Boyd v. Nebraska ex rel. Thayer,
143 U.S. 135 (1892) .............................................. 28
Branti v. Finkel,
445 U.S. 507 (1980) ...........1, 8, 9, 22, 23, 25, 30, 36
Brown v. Trench,
787 F.2d 167 (3d Cir. 1986) ........................... 10, 24
Carroll v. City of Phoenix,
2007 U.S. Dist. LEXIS 28749
(D. Ariz. Apr. 17, 2007) .................................. 16, 17
Cede & Co. v. Technicolor, Inc.,
634 A.2d 345 (Del. 1993) ...................................... 19
Dalton v. Clanton,
559 A.2d 1197 (Del. 1989) .................................... 19

vii
Page(s)
Davis v. Martin,
807 F. Supp. 385 (W.D.N.C. 1992) ................ 16, 25
Durham v. Haslam,
2014 Tenn. Cir. LEXIS 241
(Tenn. Cir. Ct. Oct. 8, 2014) ................................ 17
E.I. DuPont de Nemours & Co. v. Pressman,
679 A.2d 436 (Del. 1996) ...................................... 19
Elrod v. Burns,
427 U.S. 347 (1976) ...................................... 1, 8, 16
Exec. Benefits Ins. Agency v. Arkison,
573 U.S. 25 (2014) .......................................... 36, 37
Farmers for Fairness v. Kent County,
940 A.2d 947 (Del. Ch. 2008) ............................... 36
FEC v. Democratic Senatorial Campaign
Comm.,
454 U.S. 27 (1981) ................................................ 27
Garretto v. Cooperman,
510 F. Supp. 816 (S.D.N.Y. 1981), aff’d,
794 F.2d 676 (2d Cir. 1984) ........................... 15, 16
Gregory v. Ashcroft,
501 U.S. 452 (1991) ........................ 2, 20, 28, 29, 30
Hagan v. Quinn,
867 F.3d 816 (7th Cir. 2017) .......................... 15, 18
Hawkins v. Steingut,
829 F.2d 317 (2d Cir. 1987) ................................. 16
Hechinger v. Martin,
411 F. Supp. 650 (D.D.C. 1976), aff’d,
429 U.S. 1030 (1977) ............................................ 31

viii
Page(s)
James B. Beam Distilling Co. v. Georgia,
501 U.S. 529 (1991) .............................................. 18
Jimenez Fuentes v. Torres Gaztambide,
807 F.2d 236 (1st Cir. 1986) ................................ 17
Kelly v. State Farm Mut. Auto. Ins. Co.,
73 A.3d 926 (Del. 2013) ........................................ 20
Kurowski v. Krajewski,
848 F.2d 767 (7th Cir. 1988) .................... 10, 14, 15
Levine v. McCabe,
2007 U.S. Dist. LEXIS 92381
(E.D.N.Y. Dec. 17, 2007), aff’d, 327 F.App’x 315
(2d Cir. 2009)........................................................ 17
LoFrisco v. Schaffer,
341 F. Supp. 743 (D. Conn.), aff’d,
409 U.S. 972 (1972) .............................................. 31
In re McCann,
894 A.2d 1087 (Del. 2005) .................................... 21
McCloud v. Testa,
97 F.3d 1536 (6th Cir. 1996) .......................... 12, 17
Morin v. Tormey,
626 F.3d 40 (2d Cir. 2010) ................................... 17
Newman v. Voinovich,
986 F.2d 159 (6th Cir. 1993) .......................... 10, 15
O’Hare Truck Serv., Inc. v. City of Northlake,
518 U.S. 712 (1996) ................................................ 9
Peters v. Del. River Port Auth.,
16 F.3d 1346 (3d Cir. 1994) ................................. 20

ix
Page(s)
Progressive N. Ins. Co. v. Mohr,
47 A.3d 492 (Del. 2012) ........................................ 20
Republican Party of Minn. v. White,
536 U.S. 765 (2002) .............................................. 18
Rutan v. Republican Party of Ill.,
497 U.S. 62 (1990) .................................................. 9
Sugarman v. Dougall,
413 U.S. 634 (1973) ........................................ 28, 29
Walker v. City of Lakewood,
272 F.3d 1114 (9th Cir. 2001) .............................. 18
Walsh v. Heilman,
2006 U.S. Dist. LEXIS 26299
(N.D. Ill. Apr. 19, 2006), aff’d, 472 F.3d
(7th Cir. 2006) ...................................................... 16
Williams-Yulee v. Fla. Bar,
135 S. Ct. 1656 (2015) .................................... 28, 34
Constitutional Provisions
Del. Const. art. IV, § 3 .......................... 1, 2, 3–5, 7, 12,
13, 25, 36, 37
Del. Const. art. IV, § 3 (1897) ................................... 37
Del. Const. art. IV, § 13 ............................................. 21
Del. Const. art. IV, § 37 ............................................. 21
U.S. Const. amend. I. ................... 1, 2, 5, 8, 10, 13, 15,
25, 27, 30, 34, 36, 38
U.S. Const. amend. X ........................................ 2, 5, 13

x
Page(s)
Executive Orders
Del. Exec. Order 7 (Mar. 9, 2019) ......................... 7, 26
Statutes
28 U.S.C. 1254(1)......................................................... 3
Ariz. Rev. Stat. § 16-222(C) ...................................... 26
Del. Ch. Ct. R. 143 ..................................................... 21
Del. Code tit. 10, § 128 .............................................. 21
Del. Code tit. 10, § 161 .............................................. 21
Del. Code tit. 10, § 361 .............................................. 21
Other Authorities
Robert Daines, Does Delaware Law Improve Firm
Value?, 62 J. Fin. Econ. 525 (2001) ..................... 33
Daniel Epps & Ganesh Sitaraman, How to
Save the Supreme Court, 129 Yale L.J.
(forthcoming 2019) ......................................... 27, 35
Brian D. Feinstein & Daniel J. Hemel,
Partisan Balance with Bite, 118 Colum.
L. Rev. 9 (2018) .............................................. 35, 37
Henry J. Friendly, Reactions of a Lawyer—
Newly Become Judge, 71 Yale L.J. 218
(1961) .................................................................... 18
Ruth Bader Ginsberg, The Role of Dissenting
Opinions, 95 Minn. L. Rev. 1 (2010).................... 32
Randy J. Holland, Delaware’s Business Courts:
Litigation Leadership, 34 J. Corp. L. 771
(2009) .................................................................... 33

xi
Page(s)
Randy J. Holland, Delaware Directors’
Fiduciary Duties: The Focus on Loyalty,
11 U. Pa. J. Bus. L. 675 (2009) ............................ 19
Randy J. Holland & David A. Skeel, Jr., Deciding
Cases Without Controversy, in Delaware
Supreme Court Golden Anniversary 1951-2001
(Randy J. Holland & Helen L. Winslow ed.)
(2001) .................................................................... 32
Oliver Wendell Holmes, Jr., The Common
Law (1881) ............................................................ 18
Douglas Keith, Judicial Nominating Commissions,
Brennan Ctr. for Justice (May 29, 2019),
https://www.brennancenter.org/sites/default
/files/publications/2019_05_29_Judicial
NominationCommissions_Final.pdf .................... 26
Pauline T. Kim, Deliberation and Strategy on
the United States Courts of Appeals: An
Empirical Exploration of Panel Effects,
157 U. Pa. L. Rev. 1319 (2009) ............................ 23
Thomas J. Miles, The Law’s Delay: A Test of
the Mechanisms of Judicial Peer Effects,
4 J. Legal Analysis 301 (2012)............................. 23
Geoffrey P. Miller, Independent Agencies,
1986 Sup. Ct. Rev. 41 .......................................... 27
Office of John Carney, Financial Overview for
Fiscal Year 2019 (2018), https://budget.
delaware.gov/budget/fy2019/documents/budgetpresentation.pdf ................................................... 20

xii
Page(s)
William H. Rehnquist, The Prominence of the
Delaware Court of Chancery in the StateFederal Joint Venture of Providing Justice,
48 Bus. Law. 351 (1993) ...................................... 32
Roberta Romano, The Genius of American
Corporate Law (1993) .......................................... 33
Devera B. Scott et al., The Assault on Judicial
Independence and the Uniquely Delaware
Response, 114 Penn. St. L. Rev. 217 (2009) ........ 33
Jeffrey A. Segal, Ideology and Partisanship,
in The Oxford Handbook of U.S. Judicial
Behavior (2017) .................................................... 22
Eric J. Segall, Eight Justices Are Enough: A
Proposal to Improve the United States Supreme
Court, 45 Pepp. L. Rev. 547 (2018) ...................... 35
Bernard S. Sharfman, The Importance of the
Business Judgment Rule, 14 N.Y.U. J.L. &
Bus. 27 (2017)....................................................... 19
David A. Skeel, Jr., The Unanimity Norm in
Delaware Corporate Law, 83 Va. L. Rev.
127 (1997) ....................................................... 32, 33
Leo E. Strine, Jr., The Delaware Way: How
We Do Corporate Law and Some of the New
Challenges We (and Europe) Face, 30 Del.
J. Corp. L. 673 (2005) ........................................... 33
Cass R. Sunstein et al., Ideological Voting on
Federal Courts of Appeals: A Preliminary
Investigation, 90 Va. L. Rev. 301 (2004) ............. 23

xiii
Page(s)
Brian Z. Tamanaha, The Distorting Slant in
Quantitative Studies of Judging, 50 B.C.
L. Rev. 685 (2009) ............................................... 18
E. Norman Veasey & Christine T. Di
Guglielmo, What Happened in Delaware
Corporate Law and Governance from
1992–2004?, 153 U. Pa. L. Rev. 1399 (2005) ....... 33
Joseph T. Walsh & Thomas J. Fitzpatrick, Jr.,
Judiciary: Article IV, in The Delaware
Constitution of 1897: The First One
Hundred Years (1997) ........................................ 5, 6
Rodman Ward, Jr. & Erin Kelly, Why Delaware
Leads in the United States as a Corporate
Domicile, 9 Del. Law. 15 (1991) ........................... 32
John T. Wold, Political Orientations, Social
Backgrounds, and Role Perceptions of State
Supreme Court Judges, 27 W. Pol. Q. 239
(1974) ........................................................... 19

INTRODUCTION
The Delaware courts play a dominant role in
American—and indeed global—corporate governance.
Sixty percent of the Fortune 500 and more than half
of the corporations listed on the New York Stock Exchange are incorporated in Delaware, in no small part
due to the reputation—and reality—of the Delaware
courts as objective, stable, and nonpartisan.
These qualities have not come about by accident.
For more than 120 years, Delaware’s Constitution has
required a politically balanced judiciary. Under current law, no more than 50 percent, or a “bare majority,”
of the judges on the Supreme Court, Superior Court,
or those courts together with the Court of Chancery,
may be affiliated with one political party (the “bare
majority provision”); the other seats are reserved to
members of the “other major political party” (the “major party provision”). Del. Const. art. IV, § 3. Thus,
party affiliation renders some people ineligible to fill
certain judicial vacancies.
The Third Circuit acknowledged that “[p]raise for
the Delaware judiciary” is both “nearly universal” and
“well deserved.” App. 38a–39a (concurring opinion
joined by all three judges). It also accepted that Delaware’s “exemplary” judicial system “has resulted
from Delaware’s political balance requirements.” App.
39a; accord App. 38a. Nevertheless, it held that those
political balance provisions violate the First Amendment as interpreted by Elrod v. Burns, 427 U.S. 347
(1976), and Branti v. Finkel, 445 U.S. 507 (1980).
Those decisions prohibit the government from considering party affiliation in making employment decisions involving employees who lack policymaking au-

2
thority. The Third Circuit rejected the Governor’s argument that state court judges fall within this “policymaking” exception to Elrod and Branti—a conclusion that conflicts with every other decision on the issue, including reported Sixth and Seventh Circuit decisions and a summary Second Circuit decision.
More fundamentally, the decision below violates
the States’ sovereign right “to determine the qualifications of their most important government officials”
—including “those who sit as their judges”—“an authority that lies at the heart of representative government.” Gregory v. Ashcroft, 501 U.S. 452, 460, 463
(1991). Indeed, in Gregory this Court affirmed a decision holding that a state constitutional retirement age
for judges did not violate the Age Discrimination in
Employment Act (ADEA), based on “[the] power reserved to the States under the Tenth Amendment and
guaranteed them by that provision of the Constitution
under which the United States guarantee[s] to every
State in this Union a Republican Form of Government.” Id. at 463 (cleaned up). The same principles
apply with equal force here.
Although the Third Circuit applied its First
Amendment logic only to the major party provision, it
also invalidated the bare majority provision, finding it
not severable from the major party provision. That
conclusion is untenable for three reasons. First, the
bare majority provision continues to function even in
the absence of the major party provision. Second, Article IV, § 3, imposes only a bare majority requirement
on Delaware’s Family Court and Court of Common
Pleas, showing conclusively that that the state constitution’s framers believe that the bare majority provision has value independent of the major party provi-

3
sion. Finally, for over 50 years, the Delaware Constitution contained only a bare majority rule, without a
major party rule. It makes no sense to say that a provision that existed on its own for over 50 years, and
still does for two courts, is “not severable.”
OPINIONS BELOW
The Third Circuit’s opinion (App. 1a–41a) is reported at 922 F.3d 166 (3d Cir. 2019). The order denying reconsideration (App. 44a–45a) is unpublished.
The clarified and restated opinion of the district court
(App. 61a–82a) is unpublished.
JURISDICTION
The Third Circuit entered its judgment on April 10,
2019. App. 42a–43a. The court denied a timely rehearing petition on May 7, 2019. On July 16, 2019,
Justice Alito extended the time for filing this petition
to September 4, 2019. This Court has jurisdiction under 28 U.S.C. 1254(1).
CONSTITUTIONAL PROVISIONS INVOLVED
Section 3 of Article IV of the Delaware Constitution states in relevant part:
Appointments to the office of the State Judiciary shall at all times be subject to all of the following limitations:
First, three of the five Justices of the Supreme
Court in office at the same time, shall be of
one major political party, and two of said Justices shall be of the other major political party.
Second, at any time when the total number of
Judges of the Superior Court shall be an even
number not more than one-half of the mem-

4
bers of all such offices shall be of the same political party; and at any time when the number of such offices shall be an odd number,
then not more than a bare majority of the
members of all such offices shall be of the
same major political party, the remaining
members of such offices shall be of the other
major political party.
Third, at any time when the total number of
the offices of the Justices of the Supreme
Court, the Judges of the Superior Court, the
Chancellor and all the Vice-Chancellors shall
be an even number, not more than one-half of
the members of all such offices shall be of the
same major political party; and at any time
when the total number of such offices shall be
an odd number, then not more than a bare
majority of the members of all such offices
shall be of the same major political party; the
remaining members of the Courts above enumerated shall be of the other major political
party.
Fourth, at any time when the total number of
Judges of the Family Court shall be an even
number, not more than one-half of the Judges
shall be of the same political party; and at any
time when the total number of Judges shall
be an odd number, then not more than a majority of one Judge shall be of the same political party.
Fifth, at any time when the total number of
Judges of the Court of Common Pleas shall be
an even number, not more than one-half of
the Judges shall be of the same political party;

5
and at any time when the total number of
Judges shall be an odd number, then not more
than a majority of one Judge shall be of the
same political party.
The First Amendment to the United States Constitution provides:
Congress shall make no law respecting an establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of
speech, or of the press, or the right of the people
peaceably to assemble, and to petition the Government for a redress of grievances.
The Tenth Amendment to the United States Constitution provides:
The powers not delegated to the United States
by the Constitution, nor prohibited by it to the
States, are reserved to the States respectively,
or to the people.
STATEMENT
A. The history of Delaware’s political balance requirements
In 1897, when Delaware adopted its current constitution, the framers rejected popular elections for
judges, concluding that politics had no place in the judiciary. Joseph T. Walsh & Thomas J. Fitzpatrick, Jr.,
Judiciary: Article IV, in The Delaware Constitution of
1897: The First One Hundred Years 131–135 (1997);
C.A. App. 116–117. Instead, the governor would appoint judges with the state senate’s consent, subject to
the requirement that persons “from the same political
party” could hold no more than three of the five law
judgeships.

6
Today, persons from the same party cannot hold
more than half or a bare majority of the seats on each
of the statewide law courts or on the three highest
courts combined. The Delaware courts thus have a
partisan balance requirement that protects them from
becoming political spoils. As a result, some otherwiseeligible aspirants may not be considered for judicial
positions, due to their affiliation with the party already holding a majority. See Walsh & Fitzpatrick,
supra, at 134–135.
In 1951, when Delaware created an independent
Supreme Court, the framers added the “major party”
provision, further restricting the governor’s discretion
to make appointments that would disturb the courts’
political balance.1 Applicable to the Supreme Court,
the Superior Court, and the Court of Chancery, this
provision reserves the minority seats to members of
the “other major political party.”
The major party provision prevents governors from
appointing political allies whose views align with the
party already commanding a majority, but who register as independents or with a minor party, to seats intended for the party opposed to the majority. One effect, however, is to exclude persons who are not members of one of the two major parties from appointment
to the Delaware Supreme Court, Superior Court, or
Court of Chancery.
In 2005, the Delaware Constitution was further
amended to refer specifically to what had been two
statutory courts: the Family Court and the Court of

Prior to 1951, appeals were heard by ad hoc panels made
up of Superior Court judges and the Chancellor.
1

7
Common Pleas. The bare majority provision—but not
the major party provision—applies to those courts.
In practice, by executive order, the Governor nominates individuals to all five constitutional courts from
a list created by the Judicial Nominating Commission.
See, e.g., Del. Exec. Order 7 (Mar. 9, 2019). 2 The
twelve-member commission has its own bare majority
provision: “No more than seven members of the Commission shall be registered members of the same political party at the time of their appointment.” Id. ¶ 4.
Delaware’s political balance provisions have well
served the needs of the people of the State, creating a
well-respected judiciary that is the envy of the Nation.
In part because of Article IV, § 3, the Delaware judiciary is unusually apolitical and harmonious, with a
high rate of unanimous Supreme Court opinions.
B. The parties to this dispute
Petitioner John Carney became Governor of Delaware in January 2017. He is litigating this case in his
official capacity as the officer charged with enforcing
Article IV, § 3.
Respondent James R. Adams, a retired lawyer,
was a registered Democrat until 2016. C.A. App. 103.
In 2009, he applied for a position on the Family Court,
but was not selected for reasons unrelated to his party
affiliation. C.A. App. 62. In 2017, Adams changed his
registration to Independent. Eight days later, without applying for any judicial position, he filed this lawsuit, alleging that Delaware’s political balance provi-

2

Available at:

https://governor.delaware.gov/executive-orders/eo07/.

8
sions violate his First Amendment right to be considered for public office without regard to his political affiliation.
C. The Elrod-Branti line of decisions
In Elrod v. Burns, this Court held that the Democratic Cook County Sheriff could not discharge certain
employees, including a process server and a security
guard, solely because they were Republicans. 427 U.S.
347. Justice Brennan’s plurality noted that “patronage dismissals” would be allowed for “policymaking
positions.” Id. at 367. The opinion acknowledged that
“[n]o clear line can be drawn between policymaking
and nonpolicymaking positions,” but noted that “[a]n
employee with responsibilities that * * * are of broad
scope more likely functions in a policymaking position.” Id. at 367–368.
Four years later, in Branti v. Finkel, the Court
held that two assistant public defenders could not be
replaced merely because they were Republicans. The
“ultimate inquiry,” the Court held, “is not whether the
label ‘policymaker’ or ‘confidential’ fits a particular
position,” but “whether the hiring authority can
demonstrate that party affiliation is an appropriate
requirement for the effective performance of the public
office involved.” 445 U.S. at 518 (emphasis added).
The Court’s opinion in Branti specifically approved
of a partisan balance provision for judges, calling it
“obvious” that such a provision would be valid:
As one obvious example, if a State’s election
laws require that precincts be supervised by
two election judges of different parties, a Republican judge could be legitimately dis-

9
charged solely for changing his party registration. That conclusion would not depend on any
finding that the job involved participation in
policy decisions or access to confidential information. Rather, it would simply rest on the
fact that party membership was essential to
the discharge of the employee’s governmental
responsibilities.
Ibid.
This Court has not further defined the scope of employees to whom Elrod and Branti apply. In Rutan v.
Republican Party of Illinois, 497 U.S. 62 (1990)—
which involved a rehabilitation counselor, a road
equipment operator, an applicant to be a prison guard,
a state garage worker, and a dietary manager—the
Court expanded the anti-patronage rule to other employment decisions. But the defendants there conceded that those positions fell within the scope of the
Elrod-Branti principle. Id. at 71 n.5.
Finally, in O’Hare Truck Service, Inc. v. City of
Northlake, 518 U.S. 712 (1996), the Court held that
the Elrod-Branti restrictions on patronage applied to
independent contractors. The Court did not address
the scope of the “policymaking exception,” likely because it was plainly inapplicable to the tow-truck operators involved.
D. The decisions below
On cross-motions for summary judgment and the
Governor’s motion for reconsideration/clarification,
the district court granted judgment to Adams. The
court held that judges are not policymaking officials,
and thus that both the bare majority provision and the

10
major party provision violate Adams’ First Amendment right to be considered for government employment without consideration of his party affiliation.
App. 75a–81a. The court later stayed its decision
pending appeal. Adams v. Carney, 2018 U.S. Dist.
LEXIS 105529, *8–15 (D. Del. June 25, 2018).
The Third Circuit largely affirmed, applying circuit precedent not involving the judiciary that confined “the policymaking exception to only the class of
employees whose jobs ‘cannot be performed effectively
except by someone who shares the political beliefs of
[the appointing authority].’” App. 28a, quoting Brown
v. Trench, 787 F.2d 167, 170 (3d Cir. 1986). By definition, that excludes the use of political affiliation for
purposes of maintaining political balance—even for offices that are indisputably policymaking and of the utmost importance to the State. In sum, the court reasoned, “while judges clearly play a significant role in
Delaware, that does not make the judicial position a
political role tied to the will of the Governor and his
political preferences.” App. 26a–27a.
In so holding, the Third Circuit expressly acknowledged that it created a circuit split on the application
of Elrod and Branti to judicial appointments: “We are
aware that two of our sister Circuits have concluded
otherwise.” App. 27a, citing Kurowski v. Krajewski,
848 F.2d 767, 770 (7th Cir. 1988) (“A judge both makes
and implements governmental policy.”), and Newman
v. Voinovich, 986 F.2d 159, 163 (6th Cir. 1993) (“We
agree with the holding in Kurowski that judges are
policymakers because their political beliefs influence
and dictate their decisions on important jurisprudential matters.”).

11
Having concluded that Elrod and Branti apply, the
Third Circuit turned to the State’s justifications. Although the court did not question the State’s “vital” interest in political balance on the courts, it faulted the
Governor for failing to explain why the major party
provision, which effectively “bars candidates who do
not belong to either the Democratic or Republican parties” from serving as judges, is “the least restrictive
means of achieving political balance.” App. 32a–33a.
The court did not suggest what “le[ss] restrictive alternative” the State could have used to prevent the
bare majority provision from being circumvented. Indeed, the court elsewhere explained why the political
balance provision is essential to achieving the State’s
interest:
Operating alone, the bare majority component
could be interpreted to allow a Governor to appoint a liberal member of the Green Party to a
Supreme Court seat when there are already
three liberal Democrats on that bench. Only
with the (unconstitutional) major political
party component does the constitutional provision fulfil its purpose of preventing single party
dominance while ensuring bipartisan representation.
App. 34a.
The court acknowledged an explicit circuit split on
this point too: “The Sixth Circuit, following Branti,
has categorically held that employment decisions conditioned on political party affiliation are permissible
where the position is one of several ‘filled by balancing
out political party representation, or that are filled by

12
balancing out selections made by different government agents or bodies.’” App. 30a n.78, quoting
McCloud v. Testa, 97 F.3d 1536, 1557 (6th Cir. 1996).
Although the court purported not to address the
constitutionality of the “bare majority” provision, it
struck down this provision on the theory that it could
not be severed from the major party provision. While
acknowledging “that we should refrain from invalidating more of a statute than necessary,” the court nonetheless held that “the two substantive components of
Article IV, Section 3 are interdependent and equally
integral to the political balance scheme Delaware envisioned for the Supreme Court, Superior Court, and
Chancery Court.” App. 35a (footnote omitted).3
A concurrence written by Judge McKee, joined by
all three judges, recognized that the invalidated political balance provisions contributed to the high quality
of Delaware’s judiciary:
Praise for the Delaware judiciary is nearly universal, and it is well deserved. Scholars and
academics routinely refer to Delaware’s courts
as the preeminent forum for litigation involving business disputes. * * * Members of the
Delaware bench credit the political balancing
requirement for at least part of this success.
App. 38a–39a. The judges expressed their hope that
“the constitutional provisions which we today invalidate have resulted in a political and legal culture * * *
The court reversed the district court’s judgment that the
bare majority requirement was unconstitutional as applied
to the Family Court and Court of Common Pleas, holding
that Adams lacks standing to challenge the requirement on
those courts. App. 36a.
3

13
so firmly woven into the fabric of Delaware’s legal tradition that it will almost certainly endure in the absence of the political affiliation requirements.” App.
41a.
The Third Circuit denied rehearing or rehearing
en banc.
REASONS FOR GRANTING THE PETITION
This Court should address the express circuit split
over whether judges are policymakers under the First
Amendment and resolve that question in favor of sovereign States’ Tenth Amendment right to structure
their judiciaries in light of their vital interests, such
as Delaware’s commitment to a nonpartisan judiciary.
Further, even if this Court agrees with the court below
that the major party provision of Article IV, § 3, violates the First Amendment, the Court should review
and reverse the Third Circuit’s severability ruling and
allow the bare majority provision to remain in effect.
I.

The Court should resolve the circuit split
over whether judges are policymakers under Elrod and Branti.

The Third Circuit’s holding that judges are “nonpolicymaking” officials covered by Elrod and Branti
expressly conflicts with reported Sixth and Seventh
Circuit decisions, a summary Second Circuit decision
and the ruling of every other court to address the issue.
Moreover, the logic of the decision below extends
far beyond judges. According to the Third Circuit, the
“policymaking” exception to Elrod and Branti extends
only to positions that “cannot be performed effectively
except by someone who shares the political beliefs of
[the appointing authority].” App. 26a (emphasis
added; citation and internal quotation marks omitted).

14
If that reasoning were correct, it would mean that the
exception could not be used to preserve political balance on a board or commission or to limit the appointing official’s ability to pack the entity with political
cronies—thus endangering the constitutionality of
hundreds of federal, state, and local good-government
reform provisions. Certiorari is warranted.
A. Every other court to address the issue has
held that judges are policymakers who
fall outside the scope of Elrod and Branti.
The Third Circuit’s holding conflicts with that of
every other court to consider the issue, including reported decisions of the Sixth and Seventh Circuits.
This Court should resolve that conflict, which involves
a matter of great national importance.
1. In Kurowski v. Krajewski, the Seventh Circuit
concluded that judges are policymakers under Elrod
and Branti. 848 F.2d 767 (7th Cir. 1988). There, a
Republican state court judge (Krajewski) fired two
Democrats could serve as public defenders, a role in
which they sometimes served as judges pro tempore.
The district court held for the plaintiffs, reasoning
that judges pro tempore were not “policymakers” because they did not implement Krajewski’s policies. Id.
at 769.
The Seventh Circuit rejected that reasoning, stating: “Neither Elrod nor Branti makes anything turn
on the relation between the job in question and the
implementation of the appointing officer’s policies.”
Id. at 770. Moreover, the court explained, “A judge
both makes and implements governmental policy. A
judge may be suspicious of the police or sympathetic
to them, stern or lenient in sentencing, and political
debates rage about such questions.” Ibid.

15
The court thus determined that persons selecting
judges could consider the politics of judicial aspirants,
adding: “The Governor of Indiana was entitled to consider * * * [the judge’s] political affiliation—when
making the appointment, just as the voters may consider these factors without violating the first amendment when deciding whether to retain Judge Krajewski in office.” Ibid. As that court has since explained,
“judges and hearing officers typically occupy policymaking roles for First Amendment purposes.” Hagan
v. Quinn, 867 F.3d 816, 828 (7th Cir. 2017).
The Sixth Circuit has expressly followed Kurowski.
In Newman v. Voinovich, 986 F.2d 159 (6th Cir. 1993),
a Democratic judicial aspirant argued that a Republican governor’s practice of naming judges based solely
on the recommendations of Republican county chairpersons violated the First Amendment. The Sixth
Circuit disagreed, stating: “We agree with the holding
in Kurowski that judges are policymakers because
their political beliefs influence and dictate their decisions on important jurisprudential matters.” Id. at
163.
2. The court below acknowledged that its decision
conflicts with Kurowski and Newman. Nevertheless,
citing its narrow definition of policymaker, it rejected
those decisions as “unpersuasive.” App. 27a–29a.
The Third Circuit did not, however, acknowledge
the many other decisions, before and after Kurowski
and Newman, that have uniformly reached the same
conclusion. In Garretto v. Cooperman, 510 F. Supp.
816, 817–818 (S.D.N.Y. 1981), for example, the court
held that a terminated worker’s-compensation judge
did not show a likelihood of success on the merits of

16
her claim that firing her based on her political affiliation violated the First Amendment. The judge was
deemed a policymaker because, among other things,
“judges who approach the task of adjudication from
different points on the political spectrum will produce
markedly different results in the functioning of the
compensation system.” Id. at 819. The Second Circuit
affirmed in a one-word order. 794 F.2d 676 (2d Cir.
1984); see also Hawkins v. Steingut, 829 F.2d 317 (2d
Cir. 1987) (holding that defendants were entitled to
qualified immunity when a workers’-compensation
judge claimed he was not reappointed because of his
partisan affiliation).
Similarly, Davis v. Martin, 807 F. Supp. 385
(W.D.N.C. 1992), upheld a statute requiring a governor to appoint an interim judge from the same political party as the vacating judge, who had been popularly elected. As the court recognized, the Elrod line
of cases applies only to “low-level executive branch
employees.” Id. at 387.
In Walsh v. Heilman, 2006 U.S. Dist. LEXIS 26299
(N.D. Ill. Apr. 19, 2006), the district court held that an
administrative hearing officer was a policymaker because his duties were “very similar to, if not exactly
the same as, the duties [of] state or federal judges.” Id.
at *14. The Seventh Circuit affirmed, explaining such
the hearing officers were like judges in that, although
the laws “hedge[]” their independence, “the remaining
discretion is enough” to make them policymakers. 472
F.3d 504, 506 (7th Cir. 2006).
In Carroll v. City of Phoenix, 2007 U.S. Dist.
LEXIS 28749 (D. Ariz. Apr. 17, 2007), the court held
that a Phoenix municipal judge was a policymaker.

17
As the court noted, “in light of our common law tradition, the public tends to perceive judges of all kinds as
policymakers who shape the law by creating precedent,” and “the position confers authority to make discretionary decisions that shape the content and implementation of state and local law on a variety of issues.”
Id. at *35, *37.
In Levine v. McCabe, 2007 U.S. Dist. LEXIS 92381
(E.D.N.Y. Dec. 17, 2007), the district court held that a
New York state judicial hearing officer (not unlike a
federal magistrate judge) was a policymaker. Id. at
*22–26. Here again, the Second Circuit affirmed “for
substantially the reasons” stated by the district court.
327 F. App’x 315, 316 (2d Cir. 2009).
Finally, in Durham v. Haslam, 2014 Tenn. Cir.
LEXIS 241 (Tenn. Cir. Ct. Oct. 8, 2014), the Tennessee Court of Appeals held that it was “clear” that governors “may base their appointment[s] on political
considerations” without violating the federal constitution. Id. at *7–8.
In sum, we are aware of no federal or state decision
that resolves the question presented as did the court
below, and many come out the other way.
3. In addition to bringing the Third Circuit into
line with other courts as to whether judges are policymakers, this case provides an opportunity for the
Court to clarify the scope of the Elrod-Branti doctrine.
Currently, courts’ tests for when Elrod prohibits employment decisions based on political affiliation vary
greatly. See, e.g., Jimenez Fuentes v. Torres Gaztambide, 807 F.2d 236, 241–242 (1st Cir. 1986) (en banc)
(applying a two-step inquiry); Morin v. Tormey, 626
F.3d 40, 45 (2d Cir. 2010) (relying on eight non-exclusive factors); McCloud, 97 F.3d at 1557 (identifying

18
four exemplary categories of policymakers); Hagan,
867 F.3d at 824–825 (relying on whether the office’s
inherent powers include “meaningful input” or “room
for principled disagreement”); Walker v. City of Lakewood, 272 F.3d 1114 (9th Cir. 2001). Review is needed.
B. Common law judging has a significant policymaking element.
The Third Circuit might have thought that labeling state court judges “policymakers” would sound pejorative. In reality, however, judges are among the
most important decisionmakers in our legal-political
system. As judges and Justices across the jurisprudential spectrum have long recognized, jurists stand
at the opposite pole from the process servers, road construction workers, and rehabilitation counselors who
are subject to the Elrod-Branti rule. E.g., James B.
Beam Distilling Co. v. Georgia, 501 U.S. 529, 549
(1991) (Scalia, J., concurring in the judgment) (“I am
not so naive (nor do I think our forebears were) as to
be unaware that judges in a real sense ‘make’ law.”);
Henry J. Friendly, Reactions of a Lawyer—Newly Become Judge, 71 Yale L.J. 218, 221 (1961) (referring to
“the unfeasability, under our legal system, of divorcing the deciding from the law-making functions of the
judge”); Oliver Wendell Holmes, Jr., The Common
Law 35–36 (1881) (“[e]very important principle which
is developed by litigation is in fact and at bottom the
result of more or less definitely understood views of
public policy”); see also Brian Z. Tamanaha, The Distorting Slant in Quantitative Studies of Judging, 50
B.C. L. Rev. 685, 714–722 (2009) (collecting statements from judges).
If any judges make law, state common law judges
certainly do. As this Court explained in Republican

19
Party of Minnesota v. White, 536 U.S. 765, 784 (2002):
“Not only do state-court judges possess the power to
‘make’ common law, but they have the immense power
to shape the States’ constitutions as well.” Not surprisingly, Delaware judges themselves have recognized that they make policy. In one study, two of three
Delaware Supreme Court justices saw their role as
somewhere between a “Law Interpreter” and a “Lawmaker.” John T. Wold, Political Orientations, Social
Backgrounds, and Role Perceptions of State Supreme
Court Judges, 27 W. Pol. Q. 239, 241 (1974).
For instance, Delaware fiduciary-duty law, often
cited by courts in other jurisdictions, is judge-made.
See Randy J. Holland, Delaware Directors’ Fiduciary
Duties: The Focus on Loyalty, 11 U. Pa. J. Bus. L. 675,
700 (2009). Similarly, Delaware’s nationally and internationally emulated business-judgment rule—
which “creates a presumption that in making a business decision, the directors of a corporation acted on
an informed basis [i.e., with due care], in good faith”
—is a product of judge-made common law. Cede & Co.
v. Technicolor, Inc., 634 A.2d 345, 360 (Del. 1993)
(cleaned up); see also Bernard S. Sharfman, The Importance of the Business Judgment Rule, 14 N.Y.U.
J.L. & Bus. 27 (2017).
Every area of the common law includes policymaking. See, e.g., E.I. DuPont de Nemours & Co. v. Pressman, 679 A.2d 436, 440–442 (Del. 1996) (recognizing
that a “public policy exception” to at-will employment
is created by the common law covenant of good faith
and fair dealing); Beattie v. Beattie, 630 A.2d 1096,
1098–1101 (Del. 1993) (abrogating the common law
doctrine of interspousal immunity for torts because it
“is no longer based on sound public policy grounds”);
Dalton v. Clanton, 559 A.2d 1197 (Del. 1989) (holding

20
that the common law child support formula is consistent with public policy).
Statutory questions likewise have a public-policy
component. For instance, Delaware courts look to policy in determining how to interpret ambiguous statutes. As the Delaware Supreme Court explained in
Kelly v. State Farm Mutual Automobile Insurance Co.,
“If we determine that a statute is ambiguous, we ‘will
resort to other sources, including relevant public policy,’ to determine the statute’s purpose.” 73 A.3d 926,
929 (Del. 2013), quoting Progressive N. Ins. Co. v.
Mohr, 47 A.3d 492, 496 (Del. 2012).
C. Judges exercise other policymaking authority.
Even if Delaware judges did not make policy in
their judicial opinions, they would still be policymakers when administering the courts and regulating the
legal profession. See Gregory, 501 U.S. at 466; Peters
v. Del. River Port Auth., 16 F.3d 1346, 1353 (3d Cir.
1994) (determining whether an employee is a policymaker based on “whether the employee has ‘meaningful input into decision making concerning the nature
and scope of a major [government] program’”).
Delaware judges administer the judicial system, a
major governmental program that was recently projected to be 2.3% of Delaware’s budget. See Office of
John Carney, Financial Overview for Fiscal Year 2019,
at 10 (2018).4 The Chief Justice, with the approval of
a majority of the justices, is charged “to adopt rules
4

Available at:

https://budget.delaware.gov/budget/fy2019/documents/bud
get-presentation.pdf.

21
for the administration of justice.” Del. Const. art. IV,
§ 13. Delaware judges thus create the rules by which
the courts operate, and those rules supersede all conflicting statutory provisions. E.g., Del. Code tit. 10,
§ 161 (Supreme Court); Del. Code tit. 10, § 361 (Court
of Chancery). Since 2007, the Chancellor has had the
authority to appoint full-time Masters in Chancery
(akin to federal magistrate judges). Del. Ch. Ct. R.
143. Likewise, the State Court Administrator is appointed by, and serves at the pleasure of, Delaware’s
Chief Justice. Del. Code tit. 10, § 128.
Delaware judges also directly regulate judges. Article IV, § 37, of the Delaware Constitution provides
for the regulation of the judiciary by a Court on the
Judiciary composed of the Supreme Court justices and
the presiding judges of the other constitutional courts.
As Section 37 explains, the Court on the Judiciary can
remove or retire sitting judges.
Finally, Delaware judges regulate lawyers. Under
the Delaware Constitution, the Delaware Supreme
Court has exclusive authority for licensing and disciplining persons admitted to practice law in Delaware.
See In re McCann, 894 A.2d 1087, 1088 (Del. 2005).
The Delaware Supreme Court discharges these responsibilities through the Board of Bar Examiners,
the Board of Professional Responsibility, and the
Commission on Continuing Legal Education. It both
adopts rules for each of these boards and promulgates
the Delaware Lawyers’ Rules of Professional Conduct.
In these and many other ways, Delaware judges
make policy regulating the entire legal profession.

22
D. Balance in partisan affiliation is not irrelevant to judicial decisionmaking.
Although courts typically speak of a “policymaking
exception” to Elrod and Branti, this is something of a
misnomer. As the Court said in Branti, “the ultimate
inquiry is not whether the label ‘policymaker’ or ‘confidential’ fits a particular position; rather, the question is whether the hiring authority can demonstrate
that party affiliation is an appropriate requirement
for the effective performance of the public office involved.” 445 U.S. at 518. Certiorari is warranted to
confirm that States may consider balance in partisan
affiliation in attempting to ensure the effective functioning of their judiciaries.
Elrod and its progeny apply only to positions for
which political views and affiliations are irrelevant.
No one can honestly say that of judges—or the States
are at least entitled to conclude otherwise. In many
States, judges are chosen in partisan elections; in others they are appointed by governors using political affiliation as a proxy for judicial philosophy.
As Judge Easterbrook notes, “[p]olitical platforms,
and candidates, take strong positions on * * * contentious issues” that come before courts. Bauer v. Shepard, 620 F.3d 704, 712 (7th Cir. 2010). A large body
of political science evidence confirms the commonsense observation “that Democratic judges are indeed
more liberal than are Republican judges.” Jeffrey A.
Segal, Ideology and Partisanship, in The Oxford
Handbook of U.S. Judicial Behavior 306 (2017) (summarizing meta-analysis of 140 studies).
More relevant to Delaware’s political balance provisions is extensive scholarship by Harvard Law Pro-

23
fessor Cass Sunstein and others, showing that ideologically homogeneous judicial panels (three Republicans or three Democrats) are more extreme in their
voting patterns than the same judges sitting on ideologically mixed panels. As Sunstein explains: “Apparently a large disciplining effect comes from the presence of a single panelist from another party. Hence
all-Republican panels show far more conservative patterns than majority Republican panels, and all-Democratic panels show far more liberal patterns than majority Democratic panels.” Cass R. Sunstein et al.,
Ideological Voting on Federal Courts of Appeals: A
Preliminary Investigation, 90 Va. L. Rev. 301, 306
(2004). Indeed, Dean Thomas Miles of the University
of Chicago Law School has written that “[t]he presence of ‘peer effects’, that an ideologically homogenous
panel decides a case in a more characteristically partisan way than an ideologically mixed panel, is now a
standard finding in studies of appellate decision-making.” Thomas J. Miles, The Law’s Delay: A Test of the
Mechanisms of Judicial Peer Effects, 4 J. Legal Analysis 301, 302 (2012).5
Delaware’s political balance provisions prevent
this “panel effect” by sharply reducing ideologically
homogeneous courts. That is an “appropriate” use of
partisan affiliation in light of the policymaking role of
courts in our society. Branti, 445 U.S. at 518.

The phenomenon of “panel effects” has been replicated or
analyzed in numerous studies. See, e.g., Pauline T. Kim,
Deliberation and Strategy on the United States Courts of
Appeals: An Empirical Exploration of Panel Effects, 157 U.
Pa. L. Rev. 1319, 1323–1324 (2009) (summarizing research).
5

24
This does not mean that judicial partisanship is a
good thing—just that party affiliation is a convenient
and widely recognized proxy for beliefs that undoubtedly are relevant to the job. The Delaware Constitution pays attention to party affiliation precisely because of the dangers of unchecked partisanship. By
mandating a balance, the State has created a judicial
branch that is “nearly universal[ly]” admired for its
objectivity, stability, and degree of consensus. App.
38a. It makes no difference whether road crews,
prison guards, or process servers are balanced politically. The same cannot be said of courts.
E. The Third Circuit’s reasoning would doom
many other statutory schemes and conflicts with Elrod and Branti.
The Third Circuit held that partisan affiliation is
relevant only when the appointing authority exercises
control over the appointee’s decisions: “We have always more narrowly applied the policymaking exception to only the class of employees whose jobs ‘cannot
be performed effectively except by someone who
shares the political beliefs of [the appointing authority].’” App. 28a, quoting Brown, 787 F.2d at 170. By
definition, that excludes every use of partisan affiliation to insulate decisionmaking from political control
—even in unquestionably policymaking roles such as
regulatory commissions. That view cannot be reconciled with Elrod and Branti.
The Third Circuit’s error was to assume that the
only purpose of the policymaking exception is “to ensure that elected officials may put in place loyal employees who will not undercut or obstruct the new administration.” App. 23a. But political affiliation can
be used to accomplish the opposite end: to ensure that

25
elected officials do not put in place only loyal employees who will subordinate the public interest to the official’s politics. There is no good reason for such provisions to fall categorically outside of the Elrod-Branti
policymaking exception. The Third Circuit’s rationale
for reaching a contrary conclusion is unconvincing:
Article IV, Section 3 itself illustrates that political loyalty is not an appropriate job requirement for Delaware judges. Delaware has chosen to considerably limit the Governor’s ability
to nominate judges on the basis of political expediency. Instead, the Governor must ensure
that there are sufficient Democratic and Republican judges on the bench. Far from nominating only judges who will be loyal to his party,
the Governor may be required by Delaware’s
constitution to nominate judges who belong to
a different political party.
App. 24a. The desire to ensure representation of multiple viewpoints is no reason to hold the provision to
higher First Amendment scrutiny.
In Branti itself, this Court stated that election
judges could be politically balanced: “[I]f a State’s election laws require that precincts be supervised by two
election judges of different parties, a Republican judge
could be legitimately discharged solely for changing
his party registration.” 445 U.S. at 518. Indeed, the
Court called this “obvious.” Ibid. The Third Circuit’s
test nonetheless requires the opposite conclusion.
Likewise, in Davis v. Martin, the court upheld a
statute requiring a governor to appoint interim judges
from the same party as vacating judges they replaced,
even if that meant appointing someone whose political
beliefs were the opposite of the governor’s. 807 F. Supp.

26
at 387. The obvious purpose of that provision was to
force the governor to honor the will of the electorate
that elected the vacating judge. See also, e.g., Ariz.
Rev. Stat. § 16-222(C). The Third Circuit’s interpretation of Elrod and Branti makes even that commonsensical use of partisan affiliation constitutionally suspect.
Other methods designed to take politics out of judicial selection would be suspect under the decision
below. Delaware and other States have merit-based
judicial selection commissions that winnow the contenders for a judicial vacancy. These commissions frequently require partisan balance among members.
E.g., Del. Exec. Order 7 ¶ 4;6 Douglas Keith, Judicial
Nominating Commissions 6, Brennan Ctr. for Justice
(May 29, 2019) (describing political balance provisions). 7 Under the decision below, such reform
schemes fall within the scope of Elrod-Branti.
Moreover, the Third Circuit’s interpretation would
extend to the many federal and state regulatory commissions that have political balance provisions. The
fact that such commissions unquestionably make policy is irrelevant under the Third Circuit’s rule, as that
rule asks only whether the job “cannot be performed
effectively except by someone who shares the political
beliefs of [the appointing authority].” App. 26a.

6

Available at:

https://governor.delaware.gov/executive-orders/eo07/.
7

Available at:

https://www.brennancenter.org/sites/default/files/
publications/2019_05_29_JudicialNominationCommissions_Final.pdf.

27
Dozens of federal agencies are run by multi-member, partisan-balanced commissions. See, e.g., FEC v.
Democratic Senatorial Campaign Comm., 454 U.S. 27,
37 (1981) (noting that the FEC “is inherently bipartisan in that no more than three of its six voting members may be of the same political party”); see also
Geoffrey P. Miller, Independent Agencies, 1986 Sup.
Ct. Rev. 41, 51 (noting that, “[a]most uniformly,” “no
more than a majority” of members of independent federal agencies may “come from one party”). Indeed,
“dozens of agencies” have “some form of partisan-balance requirement,” and “the courts have never held
that they are unconstitutional.” Daniel Epps &
Ganesh Sitaraman, How to Save the Supreme Court,
129 Yale L.J. (forthcoming 2019) (footnote omitted).
Under the Third Circuit’s “narrow[] appli[cation of]
the policymaking exception” (App. 28a), the First
Amendment bars States and the federal government
from ensuring minority-party representation on any
of these bodies, as such appointees would not be “loyal”
to the “new administration.” App. 23a. That test
would upend decades of federal and state appointment practice and conflicts with Elrod and Branti.
This Court should intervene.
II. Certiorari should be granted to protect the
States’ sovereign authority to structure
their own governing institutions and to protect Delaware’s “vital interest” in a balanced
judiciary.
Certiorari is also warranted to reaffirm that federal courts are obligated to respect the States’ sovereign authority to structure their own governments, including by setting qualifications for state judges. The
Third Circuit should not have dismissed Delaware’s

28
strong interest in a politically balanced judiciary
based on a “least restrictive means” analysis.
A. Gregory requires applying a “less exacting”
standard to state constitutional provisions setting judicial qualifications.
In Gregory v. Ashcroft, 501 U.S. 452 (1991), one of
this Court’s leading federalism decisions, the Court
affirmed a decision holding that a state constitutional
mandatory retirement age for state court judges did
not violate the Age Discrimination in Employment Act.
Citing a century of precedent, the Court reaffirmed
that “each State has the power to prescribe the qualifications of its officers and the manner in which they
shall be chosen.” Id. at 462, quoting Sugarman v.
Dougall, 413 U.S. 634, 647 (1973), quoting Boyd v. Nebraska ex rel. Thayer, 143 U.S. 135, 161 (1892).
The Court in Gregory extensively quoted earlier
cases involving constitutional challenges to state
qualifications for government office, noting: “We have
lowered our standard of review when evaluating the
validity of [state qualifications for] important elective
and nonelective positions whose operations ‘go to the
heart of representative government.’” Id. at 463, quoting Bernal v. Fainter, 467 U.S. 216, 220 (1984); see
also id. at 462 (“[O]ur scrutiny will not be so demanding where we deal with matters resting firmly within
a State’s constitutional prerogatives.”), quoting Sugarman, 413 U.S. at 648; id. at 463–464 (where “[o]ther
constitutional provisions * * * proscribe certain qualifications,” the Court’s review “is less exacting, but it
is not absent”).
The Court recently reaffirmed Gregory’s holding
requiring deference to state sovereignty in WilliamsYulee v. Florida Bar, 135 S. Ct. 1656, 1671 (2015). As

29
the Court there explained, “how to select those who
‘sit as [state] judges’” involves “sensitive choices by
States in an area central to their own governance.”
Ibid.; see also Ariz. State Legislature v. Ariz. Indep.
Redistricting Comm., 135 S. Ct. 2652, 2673 (2015).
The Third Circuit’s self-described “narrow[]” definition of the policymaking exception (App. 28a) puts
the Elrod-Branti principle on a collision course with
Gregory and the venerable line of authorities on which
it rests. Reading Elrod and Branti in light of Gregory,
the policymaking exception must apply at a minimum
“to persons holding state elective and important nonelective executive, legislative, and judicial positions.”
Gregory, 501 U.S. at 462 (emphasis added). Those are
the “officers who participate directly in the formulation, execution, or review of broad public policy [and]
perform functions that go to the heart of representative government.” Ibid. And as Gregory plainly holds,
the category includes state court judges.
The Third Circuit misapprehended the role of the
policymaking exception, assuming that “[its] purpose
* * * is to ensure that elected officials may put in place
loyal employees who will not undercut or obstruct the
new administration.” App. 23a. Branti and Elrod say
no such thing. The policymaking exception has the
more fundamental constitutional purpose of preserving the sovereign right of the States “to prescribe the
qualifications of its officers and the manner in which
they shall be chosen,” which “inheres in the State by
virtue of its obligation * * * to preserve the basic conception of a political community.” Gregory, 501 U.S.
at 462, quoting Sugarman, 413 U.S. at 647.
Based on this misapprehension, the decision below
subjected “a decision of the most fundamental sort for

30
a sovereign entity” (id. at 460) to federal court review
not under the “less exacting” standard prescribed by
Gregory, but under unforgiving, heightened scrutiny.
According to the Third Circuit: “To justify a rule that
impinges an employee’s First Amendment association
rights, the state must show both that the rule promotes ‘a vital state interest’ and that the rule is ‘narrowly tailored’ to that interest,” meaning that it employs “the least restrictive means” to attain its purpose. App. 32a–33a. The court derived that test from
Rutan, App. 29a–30a, which involved low-level government employees such as road equipment operators
and prison guards—not, as in Gregory, “important
elective and nonelective positions whose operations
‘go to the heart of representative government.’” 501
U.S. at 463, quoting Bernal, 467 U.S. at 221. The latter positions are governed by more deferential rules.
Even apart from Gregory, the Third Circuit improperly read a “least restrictive means” requirement
into the Elrod-Branti policymaking exception. Branti
and Elrod do not require that the State’s particular
use of party affiliation be the “least restrictive means”
—only that party affiliation at a general level be “appropriate” to the job. Branti, 445 U.S. at 518. That is
not a demanding requirement; and as Gregory confirms, and it is clearly met with respect to state court
judges.
Because party affiliation is an “appropriate” requirement, the restriction falls within the policymaking exception, and no further scrutiny is required.
The Third Circuit’s “least restrictive means” analysis
thus conflicts with this Court’s precedents and calls
for review.

31
B. In any event, the political balance requirements would pass strict scrutiny.
In all events, under any standard of review—“vital,” “appropriate,” or something else—Delaware’s political balance provisions easily surmount the constitutional bar, as they are narrowly tailored to meet a
compelling need. Indeed, this Court has twice summarily affirmed lower court decisions upholding political balance requirements. See LoFrisco v. Schaffer,
341 F. Supp. 743, 750 (D. Conn.), aff’d, 409 U.S. 972
(1972); Hechinger v. Martin, 411 F. Supp. 650, 653
(D.D.C. 1976), aff’d, 429 U.S. 1030 (1977).
The Third Circuit did not reflect on the importance
of Delaware’s interest in political balance on its courts,
reasoning that the challenged provisions are not the
“least restrictive means” of achieving this interest:
“[T]his cannot suffice as a justification to bar candidates who do not belong to either the Democratic or
Republican parties from seeking judicial appointment,
because the Governor fails to explain why this is the
least restrictive means of achieving political balance.”
App. 32a–33a.
Yet few values are more important to States—and
especially Delaware—than the fairness, consistency,
balance, and objectivity of their courts. The Delaware
judiciary’s reputation, particularly in matters of corporate law, has made this small State a beacon for
business and business litigation all over the country.
Indeed, in the concurrence, all three members of
the court below explained that “[p]raise for the Delaware judiciary is nearly universal” and “well deserved.” App. 38a. In a similar vein, the late Chief
Justice William Rehnquist remarked that “[c]orporate

32
lawyers across the United States have praised the expertise of the Court of Chancery * * * . [T]he process
of decision in the litigated cases has so refined the law
that business planners may usually order their affairs
to avoid law suits.” William H. Rehnquist, The Prominence of the Delaware Court of Chancery in the StateFederal Joint Venture of Providing Justice, 48 Bus.
Law. 351, 354 (1993), quoting Rodman Ward, Jr. &
Erin Kelly, Why Delaware Leads in the United States
as a Corporate Domicile, 9 Del. Law. 15 (1991) (internal quotation mark omitted). As he recognized, the
Delaware bench is worthy of “one of the highest forms
of praise the judiciary can receive.” Ibid.
One of the fruits of partisan balance has been Delaware judges’ ability to reach consensus. From 1960
to 1996, an average of 97 percent of the Delaware Supreme Court’s reported decisions have been unanimous. David A. Skeel, Jr., The Unanimity Norm in
Delaware Corporate Law, 83 Va. L. Rev. 127, 132,
174–175 App. A (1997); Randy J. Holland & David A.
Skeel, Jr., Deciding Cases Without Controversy, in
Delaware Supreme Court Golden Anniversary 19512001 at 41 (Randy J. Holland & Helen L. Winslow ed.)
(2001). That trend continues today. And many, including Justices of this Court, have observed that
unanimous decisionmaking is desirable. E.g., Ruth
Bader Ginsberg, The Role of Dissenting Opinions, 95
Minn. L. Rev. 1, 3 (2010) (“[A]s Chief Justice Roberts
suggested, the U.S. Supreme Court may attract
greater deference, and provide clearer guidance, when
it speaks with one voice.”). In short, greater consensus leads to greater doctrinal stability.
Delaware’s well-earned reputation for impartiality
and expertise is one reason that companies choose to
charter there. Delaware “is the state of incorporation

33
for more than 60% of the Fortune 500 companies and
for more than half of all companies whose stock is
traded on the New York Stock Exchange and
NASDAQ.” Randy J. Holland, Delaware’s Business
Courts: Litigation Leadership, 34 J. Corp. L. 771, 772
(2009). Being incorporated in Delaware may even increase a company’s value. See Robert Daines, Does
Delaware Law Improve Firm Value?, 62 J. Fin. Econ.
525, 555 (2001); Roberta Romano, The Genius of
American Corporate Law 18 (1993) (noting that “several [studies] have found significant positive stock
price effects on firms’ reincorporation to Delaware”).
Delaware judges have concluded that the greater
objectivity and consensus within the Delaware judiciary is due at least in part to its political balance provisions. As one former Delaware Chief Justice has explained, “[t]his system has served well to provide Delaware with an independent and depoliticized judiciary and has led, in my opinion, to Delaware’s international attractiveness as the incorporation domicile of
choice.” E. Norman Veasey & Christine T. Di Guglielmo, What Happened in Delaware Corporate Law
and Governance from 1992–2004?, 153 U. Pa. L. Rev.
1399, 1402 (2005). Likewise, the current Delaware
Chief Justice has observed that “the Delaware judiciary is, by the state’s Constitution, evenly balanced between the major political parties, resulting in a centrist group of jurists committed to the sound and faithful application of the law.” Leo E. Strine, Jr., The Delaware Way: How We Do Corporate Law and Some of
the New Challenges We (and Europe) Face, 30 Del. J.
Corp. L. 673, 683 (2005); see also Devera B. Scott et
al., The Assault on Judicial Independence and the
Uniquely Delaware Response, 114 Penn. St. L. Rev.
217, 239 (2009).

34
Scholars agree. The research on “panel effects”
discussed above persuasively shows that bipartisan
judicial panels are less likely to reach extreme results
than an unmixed panel would. The Delaware Constitution generates mixed panels.
Regarding tailoring, the Third Circuit insisted
that the Governor “show that the goals of political balance could not be realized without the” political balance provisions and “explain why this is the least restrictive means of achieving political balance.” App.
32a–33a. But the court did not suggest any less-restrictive alternative. In his three-judge concurrence,
Judge McKee was content to hope that the virtue of
the political balance provisions is now “so firmly woven into the fabric of Delaware’s legal tradition that it
will almost certainly endure in the absence of the political affiliation requirements.” App. 41a. That is a
hope, not a plan.
The court’s casual dismissal of the State’s well-considered choices about its own structure of government
is wrong on not only the facts, but the law. As this
Court recently explained, “[t]he First Amendment requires that [the challenged restriction] be narrowly
tailored, not that it be ‘perfectly tailored.’” WilliamsYulee, 135 S. Ct. at 1671. Moreover, “[t]he impossibility of perfect tailoring is especially apparent when the
State’s compelling interest is as intangible as public
confidence in the integrity of the judiciary.” Ibid.
The rationale for the major party provision is plain.
In fact, the court below itself explained why it is practically the only means of securing political balance:
Operating alone, the bare majority component
could be interpreted to allow a Governor to appoint a liberal member of the Green Party to a

35
Supreme Court seat when there are already
three liberal Democrats on that bench. Only
with the (unconstitutional) major political
party component does the constitutional provision fulfil its purpose of preventing single party
dominance while ensuring bipartisan representation.
App. 34a (emphasis added).
Again, empirical research supports the conclusion.
A recent study explored whether political balance requirements for regulatory commissions have worked
in practice, concluding that, due largely to the increased ideological coherence of the two parties, party
affiliation is a more reliable metric than ever before.
See Brian D. Feinstein & Daniel J. Hemel, Partisan
Balance with Bite, 118 Colum. L. Rev. 9, 12 (2018).
Thus, scholars favoring political balance requirements typically use partisan affiliation as their means
for identifying political balance. E.g., Eric J. Segall,
Eight Justices Are Enough: A Proposal to Improve the
United States Supreme Court, 45 Pepp. L. Rev. 547,
550 (2018) (arguing that “Congress should have enacted laws and procedures to make permanent an
even-numbered Supreme Court with four Republicans
and four Democrats”); Epps & Sitaraman, supra
(“First, the Supreme Court would start with ten justices. Five would be affiliated with the Democratic
Party, and five would be affiliated with the Republican Party. These ten justices would then choose five
additional justices * * * .”).
*****
The proper question here is whether, under Gregory’s deferential standard, partisan affiliation is an
“appropriate” consideration in selecting judges.

36
Branti, 445 U.S. at 518. The Delaware Constitution’s
framers concluded that an even mix of judges affiliated with the two major parties would produce a more
concordant judiciary. The wisdom of that conclusion
is evidenced by the Delaware Supreme Court’s 97 percent unanimity rate in reported opinions, providing legal stability. Under the proper standard, it was error
to invalidate the political balance provisions of Article
IV, § 3.
Even under strict scrutiny, however, the provisions pass muster. The court below did not question
the vital nature of the State’s interest or offer any alternative means that could effectively serve the same
end. Review is needed to confirm that the Third Circuit’s approach fails to give proper consideration to
the States’ interest as sovereigns, in conflict with this
Court’s precedent.
III. The court’s severability ruling is plainly incorrect and should be reversed.
The Third Circuit applied its First Amendment
analysis only to the major party provision, but it invalidated that provision and the bare majority provision as they apply to the Supreme Court, Superior
Court, and the Court of Chancery on the ground that
the bare majority provision is “not severable” from the
major party provision. App. 33a. That conclusion is
untenable. A provision is severable if (1) it can stand
alone, and (2) it is not clear that the legislature intended the entire statute to be displaced. See Exec.
Benefits Ins. Agency v. Arkison, 573 U.S. 25, 37 (2014);
accord Farmers for Fairness v. Kent County, 940 A.2d
947, 962 (Del. Ch. 2008). Both are true here.
First, the bare majority provision serves a valid
function even without the major party provision. This

37
Court “ordinarily give[s] effect to the valid portion of
a partially unconstitutional statute so long as it remains fully operative as a law.” Arkison, 573 U.S. at
37 (cleaned up). As the Third Circuit acknowledged,
“there is no question that the bare majority component is capable of standing alone.” App. 34a. To be
sure, without the major party provision, the bare majority provision could be circumvented by naming a
judge affiliated with a small party whose views align
with the governor’s. Nonetheless, the bare majority
provision would itself impose significant constraint,
as confirmed by the fact that most political balance requirements nationwide impose a bare majority rule
without the equivalent of a major party backstop.
Feinstein & Hemel, supra, at 41.
Second, the valid portion of a law remains operative “so long as it is not ‘evident’ from the statutory
text and context that [the drafters] would have preferred no statute at all.” Arkison, 573 U.S. at 37. The
burden is on the party opposing severability.
Here, the history shows conclusively that the Delaware Constitution’s framers were willing to impose a
bare majority provision even without a major party
provision. From 1897 until 1951—54 years—that was
the case. Del. Const. art. IV, § 3 (1897). More recently,
in 2005, two statutory courts—the Family Court and
Court of Common Pleas—were given constitutional
status with a bare majority provision but no major
party provision. Del. Const. Art. IV, § 3; App. 34a (recognizing that the bare majority provision “stand[s]
alone” as to those two courts). There is no reason to
think that Delaware’s framers would prefer no limitation rather than just one.

38
It makes no sense to say that a provision that existed alone for over 50 years, still exists on its own for
two courts, and is a common device for regulatory bodies nationwide, is not severable. If this Court were to
affirm the Third Circuit’s First Amendment analysis
of the major party provision, it should correct this flagrant error in its severability analysis. It is of great
practical importance to the Delaware judicial system
and Delaware’s sovereign rights that at least part of
the political balance requirements survive.
CONCLUSION
The petition for certiorari should be granted.
Respectfully submitted,
RANDY J. HOLLAND
Wilson Sonsini Goodrich
& Rosati, PC
222 Delaware Avenue
Suite 800
Wilmington, DE 19801
(302) 304-7600
DAVID C. MCBRIDE
MARTIN S. LESSNER
PILAR G. KRAMAN
Young Conaway Stargatt
& Taylor, LLP
Rodney Square
1000 North King Street
Wilmington, DE 19801
(302) 571-6600

MICHAEL W. MCCONNELL
Counsel of Record
Wilson Sonsini Goodrich
& Rosati, PC
650 Page Mill Road
Palo Alto, CA 94304
(650) 493-9300
mmcconnell@wsgr.com
STEFFEN N. JOHNSON
BRIAN J. LEVY
Wilson Sonsini Goodrich
& Rosati, PC
1700 K Street, N.W.
Washington, DC 20006
(202) 973-8800

Counsel for Petitioners
SEPTEMBER 2019

APPENDIX

1a
Appendix A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

__________
No. 18-1045

__________
JAMES R. ADAMS
v.
GOVERNOR OF DELAWARE,

__________

Appellant

On Appeal from the United States District Court
for the District of Delaware
(D.C. No. 1-17-cv-00181)
Honorable Mary Pat Thynge, U.S. Magistrate Judge

__________
Argued September 25, 2018
Before: MCKEE, RESTREPO, and FUENTES,
Circuit Judges.
(Filed: April 10, 2019)

79561 • WILSON • APPENDIX A: PRECEDENTIAL OPINION

AL 8/15/19

2a
David C. McBride [Argued]
Pilar G. Kraman
Martin S. Lessner
Young Conaway Stargatt & Taylor
1000 North King Street
Rodney Square
Wilmington, DE 19801
Counsel for Appellant
David L. Finger [Argued]
Finger & Slanina
1201 Orange Street
One Commerce Center, Suite 725
Wilmington, DE 19801
Counsel for Appellee

__________
OPINION OF THE COURT

__________
FUENTES, Circuit Judge.
James R. Adams is a resident and member of the
State Bar of Delaware. For some time, he has
expressed a desire to be considered for a judicial
position in that state. Following the announcement of
several judicial vacancies, Adams considered
applying but ultimately chose not to because the
announcement required that the candidate be a
Republican. Because Adams was neither a
Republican nor a Democrat, he concluded that any
application he submitted would be futile.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

3a
Adams brings this suit against the Governor of the
State of Delaware to challenge the provision of the
Delaware Constitution that effectively limits service
on state courts to members of the Democratic and
Republican parties. Adams claims that under the
Supreme Court’s precedent in Elrod v. Burns1 and
Branti v. Finkel,2 a provision that limits a judicial
candidate’s freedom to associate (or not to associate)
with the political party of his or her choice is
unconstitutional. The Governor argues that because
judges are policymakers, there are no constitutional
restraints on his hiring decisions and he should be
free to choose candidates based on whether they
belong to one of the two major political parties in
Delaware—that is, whether they are Democrats or
Republicans. We disagree and conclude that judges
are not policymakers because whatever decisions
judges make in any given case relates to the case
under review and not to partisan political interests.
We therefore conclude that the portions of Delaware’s
constitution that limit Adams’s ability to apply for a
judicial position while associating with the political
party of his choice violate his First Amendment
rights, and we will accordingly affirm in part and
reverse in part the District Court’s grant of summary
judgment in favor of Adams.
I.

Background
A. Article IV, Section 3 of the Delaware
Constitution

In 1897, Delaware was unique in its method of
judicial selection—it was the only state in the
1
2

427 U.S. 347 (1976).
445 U.S. 507 (1980).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

4a
country in which the governor appointed judges
without legislative involvement.3 Judicial selection
became an important and contentious topic during
Delaware’s constitutional convention that year.
Debating whether or not to move to a system of
judicial election, delegates to the convention
expressed their deep concern over the politicization of
the judiciary. John Biggs, Sr., the president of the
convention, explained his position that the
appointment of judges would enable judges to remain
free from political cronyism and partisanship:
I think it would be very unwise that our
Judges should be mixed up, I will say, in
politics. We can obtain good men in this way,
by the confirmation by the Senate, without
those men being under political obligations,
such as are engendered at primaries and at
general elections.
And there are reasons, it occurs to me, why
the Judges should not be elected that
perhaps do not apply to any other officers.
For after all, Judges are but human.
Whoever sits upon the Bench to pass upon
the rights of yours as to your liberty and
your property ought certainly to be as free
from all influence and bias, political and
otherwise, as it is possible to throw around
that man.4
The delegates ultimately recommended amending
the Delaware Constitution to provide for
3

Randy J. Holland, The Delaware State Constitution: A
Reference Guide 128 (2002).
4
J.A. 117–18.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

5a
gubernatorial nomination of judges, with
confirmation by the Senate. They did not stop there,
however, and debated a novel approach designed to
make the judiciary “non-partisan, or if it be a better
word, bi-partisan”—a limitation on the number of
judges from one party that could sit on the bench at
any given time.5
Some delegates voiced their support for the
provision, stating that minority representation on the
judicial bench would “bring about a fuller and freer
discussion of these matters that come before them
and that they may make fair and impartial decisions
on those questions.” 6 Some, however, expressed
concern that the provision would bring about the
opposite result. As delegate Andrew Johnson
explained:
It is well known that [judges serving on
Delaware’s] Judiciary at the present time
have been appointed from one political
party. That probably is not the best course to
pursue, and I would be very glad to see the
Governor of this State appoint well equipped
men from another party. I would hail the
day when it was done and would be glad to
have it; but to vote to compel a Governor to
appoint a man on account of his political
affiliation, you are simply saying, “You are
put upon the Bench to look out for our party
interests whenever they come up.” There is
no other construction that you can put upon
it. There can be no other, in my own mind,
5
6

J.A. 130.
J.A. 133.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

6a
established, and that man is expected,
whenever a political question arises, before
that Court to take care of his own party
rights or privileges.7
Ultimately, the provision prevailed, and
Delaware’s constitution has included some form of a
political balance requirement ever since. In 1951, as
part of a wider series of structural changes to the
Delaware judiciary, the provision was modified to
exclude third party and unaffiliated voters from
applying to serve as judges on the Supreme Court,
Superior Court, and Chancery Court in Delaware.
The system thus created is binary, excluding all
candidates from consideration except those of the
Republican or Democratic parties. The provision has
been reaffirmed during the amendment process
several times, including in 2005. Article IV, Section 3
of the Delaware Constitution now reads in relevant
part:
Appointments to the office of the State
Judiciary shall at all times be subject to all
of the following limitations:
First, three of the five Justices of the
Supreme Court in office at the same time,
shall be of one major political party, and two
of said Justices shall be of the other major
political party.
Second, at any time when the total number
of Judges of the Superior Court shall be an
even number not more than one-half of the
members of all such offices shall be of the
same political party; and at any time when
7

J.A. 134.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

7a
the number of such offices shall be an odd
number, then not more than a bare majority
of the members of all such offices shall be of
the same major political party, the
remaining members of such offices shall be
of the other major political party.
Third, at any time when the total number of
the offices of the Justices of the Supreme
Court, the Judges of the Superior Court, the
Chancellor and all the Vice-Chancellors
shall be an even number, not more than onehalf of the members of all such offices shall
be of the same major political party; and at
any time when the total number of such
offices shall be an odd number, then not
more than a bare majority of the members of
all such offices shall be of the same major
political party; the remaining members of
the Courts above enumerated shall be of the
other major political party.
Fourth, at any time when the total number
of Judges of the Family Court shall be an
even number, not more than one-half of the
Judges shall be of the same political party;
and at any time when the total number of
Judges shall be an odd number, then not
more than a majority of one Judge shall be
of the same political party.
Fifth, at any time when the total number of
Judges of the Court of Common Pleas shall
be an even number, not more than one-half
of the Judges shall be of the same political
party; and at any time when the total
number of Judges shall be an odd number,

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

8a
then not more than a majority of one Judge
shall be of the same political party.8
Thus, the provision is made up of five sections—
one addressing the Supreme Court, one addressing
the Superior Court, one addressing combined
membership of those courts and the Chancery Court,
one addressing the Family Court, and, finally, one
addressing the Court of Common Pleas. Significantly,
there are also two separate, but connected,
substantive components: the bare majority
component (which limits the number of judicial
positions that can be occupied by members of a single
political party) 9 and the major political party
component (which mandates that the other judicial
positions must be filled with members of the other
major political party in Delaware). In practice, then,
most courts must be filled with Democrats and
Republicans exclusively.
B. Judicial Nominations in Delaware
Since 1978, Delaware governors have relied on
judicial nominating commissions to identify qualified
candidates for judicial appointments.10 Eleven of the
twelve commission members are appointment by the
Governor, and the twelfth is appointed by the
president of the Delaware State Bar Association with
8

Del. Const. art. IV, § 3.
When there are an even number of judges on a given
court, no more than half of the judicial seats may be held by
members of a single political party. When there is an odd
number of judicial positions, no more than a bare majority (that
is, one seat above half) may be held by members of a party. Id.
10
Holland, supra note 3, at 129.
9

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

9a
the consent of the Governor. 11 The commission
provides a list of three recommended candidates to
the Governor. The Governor is not free to ignore the
commission’s recommendations; if he is not satisfied
with the list, the commission generates another list
of candidates. 12 The nominating commission is
politically balanced and comprised of both lawyers
and non-lawyers.13
When a judicial position becomes available, the
nominating commission gives public notice of the
positions available, the salary, and the job
requirements, including the party membership
required for nomination. For example, in August
2012, the commission gave notice of five open judicial
positions, of which three were open only to
candidates who were members of the Democratic
Party and two were open to members of either
political party.
C. James Adams’s Search for a Judicial
Position
James Adams, a member of the Delaware State
Bar, is an Independent who desires a judicial position
but has not applied for one due to his current
political affiliation.
Throughout his career, Adams was a registered
Democrat and participated with the Democratic
Party. In early 2017, that changed, as Adams became
11

See Executive Order 16, available at: https://governor.
delaware.gov/executive-orders/eo16/.
12
Holland, supra note 3, at 129.
13
Id.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

10a
an Independent voter for the first time. 14 Adams
explained that he changed his affiliation because he
is progressive and grew frustrated with the centrism
of the Democratic Party in Delaware. He now
describes himself as “more of a [Vermont Senator]
Bernie [Sanders] independent.”15
Around the same time, Adams read an essay
questioning the constitutionality of Article IV,
Section 3. The essay focused in large part on the
portion of the provision that requires judicial
applicants to be members of one of Delaware’s two
major political parties, and posed the question: “May
Delaware enforce a state law providing that no
Independent or member of a minor party shall be
appointed to a judgeship?”16 After reading the article,
Adams decided to challenge the provision. He filed
the instant lawsuit against John Carney, the
Governor of the State of Delaware, in February 2017.
At the time he filed the lawsuit, he pointed to two
judicial vacancies that both required Republican
candidates.
Although Adams did not apply for either of those
judicial positions, he has applied to similar positions
in the past. In 2009, Adams applied to be a Family
Court Commissioner, but was not selected. In 2014,
Adams considered applying for judicial positions on
14

Adams’s new voter registration card, indicating that he
is unaffiliated with a political party, is dated February 13, 2017
and was mailed to him on February 14, 2017. Adams cannot
remember the exact day that he switched his party affiliation.
15
J.A. 74.
16
See Joel Edan Friedlander, Is Delaware’s ‘Other Major
Political Party’ Really Entitled to Half of Delaware’s Judiciary?,
58 Ariz. L. Rev. 1139, 1154 (2016).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

11a
the Supreme Court and the Superior Court; however,
at the time he was registered as a Democrat and the
positions were open only to Republican candidates.
Shortly thereafter, in 2015, Adams retired and
assumed emeritus status with the Delaware State
Bar. By 2017 he felt ready to resume searching for a
judicial position, and believed he was a qualified
applicant. He therefore returned to active status in
2017. Notwithstanding his interest, Adams has
refrained from submitting an application based on
his belief that he would not be considered for a
judicial position because of Artice IV, Section 3 and
his new affiliation as an Independent voter.
D. The District Court Proceedings17
Both parties filed cross-motions for summary
judgment. The Governor argued primarily that
Adams lacks both Article III and prudential standing
to bring his claims, and Adams argued that the
political balance requirement violates the First
Amendment because it conditions appointment on a
judicial candidate’s political affiliation.
The District Court determined that Adams had
Article III standing to challenge some, but not all, of
the sections of the provision. Chief Magistrate Judge
Thynge considered the first three sections because
they contain both a bare majority component and a
major political party component. She concluded that
although Adams did not apply for an open judicial
position on one of those courts, his application would
have been futile because the openings available
17

Both parties consented to the entry of final judgment by
a Magistrate Judge. See Adams v. Hon. John Carney, Dkt. 2,
No. 17 Civ. 181 (MPT) (D. Del. 2017).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

12a
around the time he filed his complaint were not
available to Independents like himself.
Sections four and five, however, contain only the
bare majority component, and Magistrate Judge
Thynge concluded that Adams did not have standing to
challenge those sections because his status as an
Independent would not have prevented his application
from being considered. She nevertheless concluded that
he had prudential standing to challenge those sections
and found that sufficient to confer jurisdiction.
Turning to the merits, Magistrate Judge Thynge
determined that Article IV, Section 3 restricted access
to a government position (here, a judgeship) based on
political affiliation. She found that the narrow
policymaking exception laid out in Elrod and Branti,
which allows a government employer to make
employment decisions based on political allegiance for
policymakers, did not apply. In reaching that
conclusion, the District Court drew on Third Circuit
and Supreme Court cases emphasizing that a judge’s
job is to apply, rather than create, the law. The
District Court also cited the Delaware Judges’ Code of
Judicial Conduct, which mandates that judges refrain
from political activity and instructs judges not to be
swayed by personal opinion. Because political
affiliation could not be seen as a necessary trait for
effective judicial decisionmaking, and because the
District Court concluded that judges do not meet the
policymaking exception established in Elrod and
Branti, she found the provision unconstitutional in its
entirety. This appeal followed.18
18

The District Court had jurisdiction under 28 U.S.C. §
1331. We have jurisdiction under 28 U.S.C. § 1291. We exercise
plenary review over the District Court’s grant of summary
judgment. Curley v. Klem, 298 F.3d 271, 276 (3d Cir. 2002).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

13a
II. Discussion
A. Standing
1.

Article III Standing

We begin by addressing Adams’s constitutional
standing. Constitutional standing, also referred to as
Article III standing, is “a threshold issue that must
be addressed before considering issues of prudential
standing.”19 Because it is an essential component of
subject matter jurisdiction, if Article III standing is
lacking, our inquiry must end and Adams’s claim
must be dismissed.20
To satisfy the “irreducible conditional minimum” of
standing, a plaintiff must show that he has: “(1)
suffered an injury in fact, (2) that is fairly traceable
to the challenged conduct of the defendant, and (3)
that is likely to be redressed by a favorable judicial
decision.”21 Of standing’s three elements, “injury in
fact, [is] the ‘first and foremost.’” 22 “To establish
injury in fact, a plaintiff must show that he or she
suffered ‘an invasion of a legally protected interest’
that is ‘concrete and particularized’ and ‘actual or
imminent, not conjectural or hypothetical.’” 23
19

Hartig Drug Co. Inc. v. Senju Pharm. Co., 836 F.3d 261,
269 (3d Cir. 2016) (quoting Miller v. Nissan Motor Acceptance
Corp., 362 F.3d 209, 221 n.16 (3d Cir. 2004)).
20
See Lance v. Coffman, 549 U.S. 437, 439 (2007).
21
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016)
(citing Lujan v. Defenders of Wildlife, 504 U.S. 555, 560–61
(1992)).
22
Id. (quoting Steel Co. v. Citizens for Better Environment,
523 U.S. 83, 103 (1998)).
23
Id. (quoting Lujan, 504 U.S. at 560).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

14a
However, a plaintiff need not make futile gestures to
establish that injury is actual and not conjectural.24
It is black letter that standing may not be
“dispensed in gross.”25 Our cases demonstrate that we
must ask not only whether Adams has standing to
sue at all, but whether he has standing to challenge
part or all of Article IV, Section 3.26 Accordingly, we
do not ask only whether Adams has been injured by
Article IV, Section 3 of the Delaware Constitution.
We must identify how, if at all, he has been injured,
and whether that injury stems from all or part of the
provision.
Adams desires a judgeship, and he has applied for,
or considered applying for, judicial positions since at
least 2009. If he felt his application would be
reviewed, he would consider applying for a judicial
seat on any of Delaware’s five constitutional courts.
But because Adams is an Independent, he has
refrained from submitting an application in light of
the restrictions of Article IV, Section 3.

24

Sammon v. New Jersey Bd. of Medical Examiners, 66
F.3d 639, 643 (3d Cir. 1995).
25
Town of Chester, N.Y. v. Laroe Estates, Inc., 137 S. Ct.
1645, 1650 (2017) (quoting Davis v. Fed. Election Comm’n, 554
U.S. 724, 734 (2008)).
26
See Contractors Ass’n of E. Pennsylvania, Inc. v. City of
Philadelphia, 6 F.3d 990, 995 (3d Cir. 1993) (“Our standing
inquiry has two parts: whether the Contractors have standing
to challenge the Ordinance at all, and if so, whether they have
standing to challenge all or just part of the Ordinance.”); see
also Service Employee’s Int’l Union, Local 3 v. Municipality of
Mt. Lebanon, 446 F.3d 419, 422 (3d Cir. 2006) (separately
considering a union’s standing to challenge each section of an
allegedly unconstitutional municipality ordinance).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

15a
The District Court agreed with Adams that it
would have been futile to apply for a judicial position
on the Supreme Court, Superior Court, or Chancery
Court, because under Delaware’s constitution, judges
on those courts must be members of one of
Delaware’s two major political parties, and Adams is
not. The Governor does not contest that Adams has
constitutional standing to challenge these provisions,
and we agree that Adams has clearly been injured by
the major political party component and therefore
has standing to challenge it.
But the District Court also concluded that Adams’s
application to either the Family Court or the Court of
Common Pleas “would not have been futile, because
there is no party requirement constitutionally attached
to either Court.”27 Adams argues that the bare majority
component injures him independently of the major
political party component because it “limit[s] the right
to a bare majority to members of a ‘political party.’”28 In
his view, the bare majority component mandates that
one of the two major political parties control a bare
majority of judicial seats on the relevant court, thereby
limiting an Independent’s ability to successfully apply
for a position. The component, however, creates a
ceiling for members of the same political party; it does
not create a floor entitling them to a certain number of
judicial seats.29
27

J.A. 13. The last two sections of the provision, which
cover the Family Court and the Court of Common Pleas, contain
only the bare majority component.
28
Appellee’s Br. at 13–14.
29
As the District Court explained, the bare majority
component “places no limitations on unaffiliated voters and only
affects judicial candidates of a major political party when the
bare majority of judicial offices on those courts is filled with
individuals affiliated with that major political party.” J.A. 29.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

16a
Therefore, we agree with the District Court’s
reading of Article IV, Section 3 and conclude that
Adams does not have standing to challenge the
sections of the provision that contain only the bare
majority component. Nevertheless, the District Court
went on to conclude that Adams did not need to
establish constitutional standing because he
established prudential standing. The District Court’s
conclusion that prudential standing can serve as
“substitute” standing for a plaintiff who cannot
demonstrate constitutional standing is incorrect.
While Article III standing is a threshold issue that
implicates subject matter jurisdiction, prudential
standing is not. Instead, it is a “judicially selfimposed limit[] on the exercise of federal
jurisdiction.” 30 Prudential standing cannot vest a
court with subject matter jurisdiction; therefore, it
cannot replace or substitute for constitutional
standing, as without the latter, the case must be
dismissed.31 Therefore, because Adams does not have
Article III standing with respect to the Family Court
and the Court of Common Pleas, we may not consider
the merits of his argument with respect to those
courts.32
30

Davis v. City of Philadelphia, 821 F.3d 484, 487 (3d Cir.
2016) (quoting United States v. Windsor, 570 U.S. 744, 757
(2013)).
31
See Lance, 549 U.S. at 439.
32
The Governor argues that because Adams lacked
standing to challenge the sections of Article IV, Section 3 that
contain only the bare majority component, he also cannot
challenge the bare majority component even where it appears in
the sections of Article IV, Section 3 governing the makeup of the
Supreme Court, Superior Court, and Chancery Court, where the
bare majority requirement is tied to the major political party
component. The Governor’s argument confuses the standing

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

17a
2.

Prudential Standing

We next address whether the doctrine of
prudential standing should give us pause before
reaching the merits of the dispute over the first three
sections of the political balance requirement. Even
when Article III standing is present, we look to
prudential considerations “to avoid deciding
questions of broad social import where no individual
rights would be vindicated and to limit access to the
federal courts to those litigants best suited to assert
a particular claim.”33 Prudential standing requires
doctrine with the severability doctrine. When we consider
standing, we ask whether the plaintiff before us has actually
been injured by the statute or constitutional provision she
challenges. See Spokeo, 136 S. Ct. at 1547 (citing Lujan, 504
U.S. at 560–61). When we consider severability, we ask whether
all or only part of a constitutionally infirm statute must be
stricken. See Ayotte v. Planned Parenthood of N. New England,
546 U.S. 320, 328–29 (2006). The Governor’s argument puts the
cart before the horse by asking us to consider whether Adams
would have standing to challenge the bare majority component
if the major political party component were stricken from those
sections. But that is not what is before us, and we have never
held that standing must be established independently for each
clause of a challenged provision. Once a plaintiff has met the
Article III requirements for a particular constitutional or
statutory provision, we have jurisdiction to turn to the merits of
her case. If we determine on the merits that part of the statute
that has injured her is unconstitutional, we then ask whether
part of the statute can remain intact while the unconstitutional
part falls. The Governor, recognizing as much, relies on our
severability jurisprudence to argue that we should leave the
bare majority provision intact without explicitly referencing the
doctrine. Recognizing his argument for what it is, we will
address the severability of the two components after addressing
the constitutionality of Article IV, Section 3.
33
Joint Stock Society v. UDV N. Am., Inc., 266 F.3d 164,
179 (3d Cir. 2001) (quoting Conte Bros. Auto., Inc. v. Quaker
State-Slick 50, Inc., 165 F.3d 221, 225 (3d Cir. 1998)).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

18a
“(1) that a litigant assert his or her own legal
interests rather than those of a third party; (2) that
the grievance not be so abstract as to amount to a
generalized grievance; (3) and that the [plaintiff’s]
interests are arguably within the ‘zone of interests’
protected by the statute, rule, or constitutional
provision on which the claim is based.”34
We see no reason to ignore Adams’s challenge to
Article IV, Section 3 on prudential grounds. Although
the question is surely one of broad social import in
Delaware, Adams has established that aside from his
political affiliation, he feels qualified for a judicial
position and intends to apply for a judicial position if
he is able. The provision may be of interest to many
residents of Delaware, but Adams has shown that he
has a particular legal interest in the constitutionality
of Article IV, Section 3 because of his desire to apply
for a judicial position while refraining from
associating with either the Democratic or Republican
parties.
The Governor’s arguments to the contrary are
unavailing. He states that Adams’s interest in this
case is “merely an academic exercise” because Adams
switched his political affiliation in the days before
filing this Complaint, and had not applied for a
judicial position since 2009 although, as a registered
Democrat until 2017, he could have.35 Essentially,
the Governor’s argument asks us to discredit the
portions of Adams’s deposition in which he explained
why he decided to leave the Democratic Party (he
was frustrated by the lack of progressive Democrats
in Delaware) and why he did not apply for a judicial
34
35

Lewis v. Alexander, 685 F.3d 325, 340 (3d Cir. 2012).
Appellant’s Br. at 24–25.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

19a
position after 2009 (he found working for the late
Beau Biden rewarding and therefore did not consider
other career opportunities until after Biden’s death
in 2015). But in opposing a motion for summary
judgment, the Governor was required to do more
than speculate that Adams has deceived the Court
about his genuine interest in applying for a judicial
position. 36 The short time period in which Adams
changed his party affiliation, read the law review
article, and filed suit, without more, is insufficient to
raise a genuine issue of material fact about Adams’s
prudential standing.
B. The Elrod/Branti Inquiry
We now turn to the heart of this appeal: whether
the sections of Article IV, Section 3 of the Delaware
Constitution that govern the Supreme Court, the
Superior Court, and the Chancery Court run afoul of
the First Amendment’s guarantee of freedom of
association. A trio of seminal United States Supreme
Court cases explain the limits on a government
employer’s ability to consider a job candidate’s
political allegiance and govern our analysis here:
Elrod,37 Branti,38 and Rutan.39 We discuss each case in
turn.
In Elrod v. Burns, Justice Brennan, writing for the
plurality, recognized that the practice of patronage
dismissals—dismissing a civil servant because his
36

Ramara, Inc. v. Westfield Ins. Co., 814 F.3d 660, 666 (3d
Cir. 2016) (a movant may not rely on “speculation and
conjecture in opposing a motion for summary judgment”).
37
427 U.S. 347 (1976).
38
445 U.S. 507 (1980).
39
Rutan v. Republican Party of Ill., 497 U.S. 62 (1990).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

20a
political affiliation differed from the political party in
power—is “inimical to the process which undergirds
our system of government and is at war with the
deeper traditions of democracy embodied in the First
Amendment.” 40 He explained that to justify
terminating a public employee based on political
allegiance, the government must show that the
practice “further[s] some vital government end by a
means that is least restrictive of freedom of belief
and association in achieving that end, and the benefit
gained must outweigh the loss of constitutionally
protected rights.”41 The plurality suggested that the
government’s interest in employee loyalty would
allow it to discharge employees in policymaking
positions based on political allegiance.42 Although “no
clear line can be drawn between policymaking and
nonpolicymaking positions,” the plurality instructed
factfinders to consider the nature of the employee’s
responsibilities to determine whether or not he or she
is in a policymaking position.43
The Court next examined the First Amendment
implications of politically-motivated employment
decisions in Branti v. Finkel. Summarizing Elrod, the
Court stated that “if an employee’s private political
beliefs would interfere with the discharge of his
40

427 U.S. at 357 (internal quotations marks omitted
(quoting Illinois State Employees Union v. Lewis, 473 F.2d 561,
576 (1972))). In a concise concurrence, Justice Stewart, joined
by Justice Blackmun, stated that a “nonpolicymaking,
nonconfidential government employee” may not be discharged
or threatened with discharge on the sole ground of his or her
political beliefs. Id. at 375 (Stewart, J., concurring).
41
Id. at 363.
42
Id. at 367.
43
Id. at 367–68.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

21a
public duties, his First Amendment rights may be
required to yield to the State’s vital interest in
maintaining governmental effectiveness and
efficiency.”44 The Court, however, moved away from
Elrod’s policymaking distinction and held that “the
ultimate inquiry is not whether the label
‘policymaker’ or ‘confidential’ fits a particular
position; rather, the question is whether the hiring
authority can demonstrate that party affiliation is an
appropriate requirement for the effective
performance of the public office involved.” 45 The
Court explained that some positions, like that of an
election judge, might be political without being a
policymaking role, and some, like that of a state
university football coach, might involve setting policy
without being political.46
In Rutan, the Court confirmed that the general
prohibition on politically-motivated discharge also
applies to decisions to promote, transfer, or hire an
employee. 47 “Unless these patronage practices are
narrowly tailored to further vital government
interests, we must conclude that they impermissibly
encroach on First Amendment freedoms.”48
The Governor of Delaware sets forth two
arguments to justify his practice of requiring
applicants for judicial positions to be Democrats or
Republicans: first, the Governor argues that because
judges are policymakers, they can be hired or fired
44
45
46
47
48

Branti, 445 U.S. at 517.
Id. at 518.
Id.
Rutan, 497 U.S. at 74.
Id. at 74.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

22a
based on their political affiliation without restraint,
and second, the Governor argues that even if they are
not policymakers, Delaware has an interest in
political balance that justifies the restrictions set
forth in Article IV, Section 3.
1.

The Policymaking Exception49

In our cases applying Branti, Elrod, and Rutan, we
have set forth criteria to aid us in determining
whether an employee’s job responsibilities would
make political party allegiance an appropriate
condition of employment. We consider “whether the
employee has duties that are non-discretionary or
non-technical, participates in discussions or other
meetings, prepares budgets, possesses the authority
to hire or fire other employees, has a high salary,
retains power over others, and can speak in the name
of policymakers.”50 The “key factor” is whether an
employee in that position “has meaningful input into
decisionmaking concerning the nature and scope of a
major program.” 51 Using this analysis, we have
concluded that political affiliation is an appropriate
requirement for a director of a veterans’
49

Adams argues that after Branti, the question of whether
a government position involves policymaking is irrelevant. We
disagree. As we have explained before, after Branti, “the fact
that an employee is in a policymaking or confidential position is
relevant to the question of whether political affiliation is a
necessary job requirement but this fact is no longer dispositive
. . . .” Brown v. Trench, 787 F.2d 167, 168–69 (3d Cir. 1986); see
also Galli v. New Jersey Meadowlands Comm’n, 490 F.3d 265,
270 (3d Cir. 2007) (“The exception for ‘policymaking’ jobs exists
because political loyalty is essential to the position itself.”).
50
Galli, 490 F.3d at 271 (citing Brown, 787 F.2d at 169).
51
Id. (quoting Armour v. County of Beaver, PA, 271 F.3d
417, 429 (3d Cir. 2001)).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

23a
administrative services department,52 an assistant
director of public information, 53 assistant district
attorneys, 54 city solicitors and assistant city
solicitors,55 a solicitor for the Northeast Pennsylvania
Hospital and Education Authority, 56 and a city
manager, 57 among others. We have never before
considered the role of a state judge. We now conclude
that a judicial officer, whether appointed or elected,
is not a policymaker.
This outcome is clear from the principles
animating Elrod and Branti. The purpose of the
policymaking exception is to ensure that elected
officials may put in place loyal employees who will
not undercut or obstruct the new administration.58 If
a job “cannot properly be conditioned upon allegiance
to the political party in control,” the policymaking
52

Waskovich v. Morgano, 2 F.3d 1292, 1298–1303 (3d Cir.

1993).
53
54
55
56
57

Brown, 787 F.2d at 169–70.
Mummau v. Ranck, 687 F.2d 9, 10 (3d Cir. 1982).
Ness v. Marshall, 660 F.2d 517, 520–22 (3d Cir. 1981).
Wetzel v. Tucker, 139 F.3d 380, 384–86 (3d Cir. 1998).
Curinga v. City of Clairton, 357 F.3d 305, 313 (3d Cir.

2004).
58

Elrod, 427 U.S. at 367 (“A second interest advanced in
support of patronage is the need for political loyalty of
employees, not to the end that effectiveness and efficiency be
insured, but to the end that representative government not be
undercut by tactics obstructing the implementation of policies of
the new administration, policies presumably sanctioned by the
electorate. The justification is not without force, but is
nevertheless inadequate to validate patronage wholesale.
Limiting patronage dismissals to policymaking positions is
sufficient to achieve this governmental end.”).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

24a
exception is inappropriate.59 Judges simply do not fit
this description. The American Bar Association’s Model
Code of Judicial Conduct instructs judges to promote
“independence” and “impartiality,” not loyalty.60 It also
asks judges to refrain from political or campaign
activity. 61 The Delaware Code of Judicial Conduct
similarly makes clear that judges must be “unswayed
by partisan interests” and avoid partisan political
activity.62 The Delaware Supreme Court has stated
that Delaware judges “must take the law as they find
it, and their personal predilections as to what the law
should be have no place in efforts to override properly
stated legislative will.”63 Independence, not political
allegiance, is required of Delaware judges.
Article IV, Section 3 itself illustrates that political
loyalty is not an appropriate job requirement for
Delaware judges. Delaware has chosen to
considerably limit the Governor’s ability to nominate
judges on the basis of political expediency. Instead,
the Governor must ensure that there are sufficient
Democratic and Republican judges on the bench. Far
from nominating only judges who will be loyal to his
party, the Governor may be required by Delaware’s
constitution to nominate judges who belong to a
different political party. The Governor, therefore,
cannot credibly argue that he must be free to follow a
rule excluding those who do not belong to the two
major parties in Delaware because allegiance to his
59

Branti, 445 U.S. at 519.
Am. Bar Ass’n Model Code of Judicial Conduct Canon 1.
61
Id. Canon 4.
62
Del. Judges’ Code Judicial Conduct Rules 2.4(A), 4.1.
63
Leatherbury v. Greenspun, 939 A.2d 1284, 1292 (Del.
2007) (quoting Ewing v. Beck, 520 A. 2d 653, 660 (1987)).
60

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

25a
party is an appropriate condition for judicial
employment.
Nor are we swayed by his argument that the
important role judges play in Delaware transforms
them into political actors. The Governor argues that by
interpreting statutes, sentencing criminal defendants,
and crafting the common law, judges in Delaware
make policy and exercise significant discretion. But the
question before us is not whether judges make policy,64
it is whether they make policies that necessarily reflect
the political will and partisan goals of the party in
power. That is why, as the Court explained in Branti, a
football coach for a state university cannot be
discharged because of her political affiliation even
though she may formulate policy for the athletic
department.65 And why public defenders, who made
some policy decisions in fulfilling their public office,
still could not be fired on the basis of their political
allegiance—because their policymaking activity did not
relate to “any partisan political interest.”66
To the extent that Delaware judges create policy,
they do so by deciding individual cases and
controversies before them, not by creating partisan
64

Compare Matthews v. Lucas, 427 U.S. 495, 515 (1976)
(“Nor, in ratifying these statutory classifications, is our role to
hypothesize independently . . . . These matters of practical
judgment and empirical calculation are for Congress.”), with
Wetzel, 139 F.3d at 386 (“Tough legal questions are not
answered mechanically, but rather by the exercise of seasoned
judgment. Judgment is informed by experience and perspective
. . . .”); see generally Gregory v. Ashcroft, 501 U.S. 452, 465–67
(1991) (explaining, without resolving, the debate over whether
judges make policy).
65
Branti, 445 U.S. at 518.
66
Id. at 519.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

26a
agendas that reflect the interests of the parties to
which they belong. 67 Similarly, although the
Governor contends that Delaware judges have
meaningful input into a major government program
because they set the judiciary’s budget and create
rules of civil and criminal procedure, the operation of
the judicial branch is not “so intimately related to
[Delaware] policy” that the Governor would have “the
right to receive the complete cooperation and loyalty
of a trusted advisor [in that position].”68
The policymaking inquiry is designed to test
whether the position in question “is one which cannot
be performed effectively except by someone who
shares the political beliefs of [the appointing
authority].”69 Put simply, while judges clearly play a
67

See Branti, 445 U.S. at 519–20 (“[W]hatever
policymaking occurs in the public defender’s officer must relate
to the needs of individual clients and not to any partisan
political interests. . . . Under these circumstances, it would
undermine, rather than promote, the effective performance of
an assistant public defender’s office to make his tenure
dependent on his allegiance to the dominant political party.”).
68
Ness, 660 F.2d at 522 (“[W]e agree with the district
court that, as a matter of law, the duties imposed on city
solicitors by the York Administrative Code and the undisputed
functions entailed by these duties e.g., rendering legal opinions,
drafting ordinances, [and] negotiating contracts define a
position for which party affiliation is an appropriate
requirement. In relying on an attorney to perform these
functions so intimately related to city policy, the mayor has the
right to receive the complete cooperation and loyalty of a trusted
adviser, and should not be expected to settle for less.”).
69
Brown, 787 F.2d at 170. See also Branti, 445 U.S. at 517
(“[I]f an employee’s private political beliefs would interfere with
the discharge of his public duties, his First Amendment rights
may be required to yield to the State’s vital interest in
maintaining governmental effectiveness and efficiency.”).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

27a
significant role in Delaware, that does not make the
judicial position a political role tied to the will of the
Governor and his political preferences. As such, the
policymaking exception does not apply to members of
the judicial branch.
We are aware that two of our sister Circuits have
concluded otherwise. In Kurowski v. Krajewski, the
Seventh Circuit determined that the guiding
question in political affiliation cases was “whether
there may be genuine debate about how best to carry
out the duties of the office in question, and a
corresponding need for an employee committed to the
objectives of the reigning faction,” and answered that
question in the affirmative with respect to judges and
judges pro tempore.70 In Newman v. Voinovich, the
Sixth Circuit similarly concluded that judges were
policymakers who could be appointed on the basis of
their partisan affiliation. 71 We find these cases
unpersuasive for two reasons.

70

Kurowksi, 848 F.2d 767, 770 (7th Cir. 1988) (“A judge
both makes and implements governmental policy. A judge may
be suspicious of the police or sympathetic to them, stern or
lenient in sentencing, and political debates rage about such
questions. In most states judges are elected, implying that the
office has a political component. Holders of the appointing
authority may seek to ensure that judges agree with them on
important jurisprudential questions.”).
71
Newman, 986 F.2d 159, 163 (6th Cir. 1993) (“We agree
with the holding in Kurowski that judges are policymakers
because their political beliefs influence and dictate their
decisions on important jurisprudential matters. . . . Therefore,
we believe that Governor Voinovich’s appointment of judges
based on political considerations is consistent with Elrod,
Branti, and Rutan.”).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

28a
First, we do not believe, as the Seventh Circuit
does, that the policymaking exception described in
Elrod and Branti is merely “shorthand for a broad
category of public employees whose work is politically
sensitive and who exercise significant discretion in
the performance of their duties.”72 Under the Seventh
Circuit’s view, so long as employees make decisions
involving issues about which “political debates rage,”
they may be hired or fired for their party affiliation.73
We have always more narrowly applied the
policymaking exception to only the class of employees
whose jobs “cannot be performed effectively except by
someone who shares the political beliefs of [the
appointing authority].” 74 There can be no serious
question that judicial candidates of different political
parties can effectively serve as state judges. Thus,
while “political debates rage” about issues that
judges must decide in the course of their state
employment, we do not believe that this leaves
judges entirely at the whim of state governors and
the patronage of the ruling party. While states have
nearly unfettered discretion to select state judges,
states cannot condition judicial positions on partisan
political affiliation alone.
Second, the opinions in Kurowski and Newman
conflate an appointing authority’s ability to consider
the political beliefs and ideologies of state employees
with that authority’s ability to condition employment
on party loyalty. Under our case law, discrimination
72

Hagan v. Quinn, 867 F.3d 816, 824 (7th Cir. 2017)
(finding that arbitrators on the Illinois Workers’ Compensation
Commission are policymakers).
73
Kurowski, 848 F.2d at 770.
74
Brown, 787 F.2d at 170.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

29a
based on political patronage is only actionable where
the employee’s political affiliation was a “substantial
or motivating factor in the government’s employment
decision.”75 Elrod and Branti protect affiliation—and
decisions not to affiliate—with a political party. We
have never read them to prohibit an appointing
official from considering a job candidate’s views on
questions and issues related to the job itself. There is
a wide gulf between a governor asking a judicial
candidate about his philosophy on sentencing, for
example, and a governor posting a sign that says
“Communists need not apply.”76 The former does not
run afoul of the First Amendment; but in our view,
the latter does. Because the approach of the Sixth
and Seventh Circuits would allow governors both to
weigh an individual candidate’s political beliefs and
to condition judicial positions on party allegiance, we
must disagree.
We therefore conclude that state judges do not fall
within the policymaking exception because affiliation
with a particular political party is not a requirement
for the effective performance of the judicial role.
2.

Delaware’s Interest in Political
Balance

We next consider the Governor’s second argument,
that even if state judges are not policymakers, their
political affiliation is still an appropriate condition of
state employment. The Court in Rutan emphasized
that politically motivated employment practices
75

Galli, 490 F.3d at 271.
See Keyishian v. Bd. Of Regents of Univ. of State of N.Y.,
385 U.S. 589, 605–10 (1967).
76

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

30a
could be constitutional if they are “narrowly tailored
to further vital government interests.”77 While most
cases following Branti have focused on the
policymaking exception, which relates to a state’s
interest in the loyalty and efficiency of key state
employees, the Governor argues that Article IV,
Section 3 can be justified by a different interest—the
interest in political balance. We need not dwell long
on whether Delaware possesses a “vital state
interest” in a politically balanced judiciary, because
Delaware’s practice of excluding Independents and
third party voters from judicial employment is not
narrowly tailored to that interest.
The Governor posits that the Supreme Court has
always recognized the permissibility of conditioning
appointments on political affiliation when the goal is
to ensure political balance. In Branti, the Court
stated that “if a State’s election laws require that
precincts be supervised by two election judges of
different parties, a Republican judge could be
legitimately discharged solely for changing his party
registration.”78 Similarly, in LoFrisco v. Schaffer and
Hechinger v. Martin, the Supreme Court affirmed
two district court decisions approving political
balance statutes governing elections for a state’s
boards of education and the District of Columbia’s
77

Rutan, 497 U.S. at 74.
Branti, 445 U.S. at 518. The Sixth Circuit, following
Branti, has categorically held that employment decisions
conditioned on political party affiliation are permissible where
the position is one of several “filled by balancing out political
party representation, or that are filled by balancing out
selections made by different government agents or bodies.”
McCloud v. Testa, 97 F.3d 1536, 1557 (6th Cir. 1996).
78

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

31a
city council, respectively.79 The Governor also points
to several federal administrative agencies that use
some form of political balance requirement for
decisionmaking bodies, including the Federal Deposit
Insurance Corporation, the Federal Trade
Commission, the Securities and Exchange
Commission, the Federal Communications
Commission, the Commission on Civil Rights, the
Federal Energy Regulatory Commission, and the
Federal Election Commission. These examples show
some support for the Governor’s argument, but
unlike elected officials and agency representatives
who explicitly make policy, judges perform purely
judicial functions. Further, it is difficult to see how
the logic of political balance and minority
representation extends from multimember
deliberative bodies, like a school board, to Delaware’s
judiciary, most of whom sit alone.80
The Seventh Circuit has also addressed the
political balance interest in the judicial context. In
Common Cause Indiana v. Individual Members of the
Indiana Election Commission, the court considered a
municipal ordinance prohibiting political parties
from nominating candidates for more than half of the
79

See LoFrisco v. Schaffer, 341 F. Supp. 743, 744–45, 750
(D. Conn. 1972), aff’d 409 U.S. 972 (1972); Hechinger v. Martin,
411 F. Supp. 650, 653 (D.D.C. 1976), aff’d 429 U.S. 1030 (1977).
80
The Delaware Supreme Court is the only judicial body
in which a panel of judges regularly hears cases as a collective.
Even then, panels are usually comprised of three of the five
judges on the court. The political balance on a panel, therefore,
does not necessarily mirror the political balance of the Supreme
Court as a whole. See Randy J. Holland and David A. Skeel, Jr.,
Deciding Cases Without Controversy, 5 DEL. L. REV. 115, 121
(2002).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

32a
eligible seats on its superior court.81 The Seventh
Circuit found that partisan balance concerns are less
compelling with respect to judges, who are “not
elected [or appointed] to represent a particular
viewpoint” and instead are required to “exercise
[their] own independent authority to make decisions
that uphold and apply the law fairly and
impartially.” 82 The court also emphasized that
“partisan balance amongst the judges who comprise
the court, alone, has little bearing on impartiality”
because while it can “serve as a check against
contrary partisan interests,” it does not affect “the
impartiality of individual members.”83
While we share many of the Seventh Circuit’s
concerns about conflating party balance with judicial
impartiality, we need not resolve the issue today. To
justify a rule that impinges an employee’s First
Amendment association rights, the state must show
both that the rule promotes “a vital state interest”
and that the rule is “narrowly tailored” to that
interest. Even assuming judicial political balance is a
vital Delaware interest, the Governor must also show
that the goals of political balance could not be
realized without the restrictive nature of Article IV,
Section 3, and this he has failed to do.
The Governor describes the benefits of balance and
details the popularity Article IV, Section 3 has
among Delaware judges and former judges. But this
cannot suffice as a justification to bar candidates who
do not belong to either the Democratic or Republican
81
82
83

Common Cause, 800 F.3d 913, 915 (7th Cir. 2015).
Id. at 922–23.
Id.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

33a
parties from seeking judicial appointment, because
the Governor fails to explain why this is the least
restrictive means of achieving political balance.
Because the Governor has not shown that Article IV,
Section 3 is narrowly tailored to further a vital state
interest, the infringement on judicial candidates’
association rights is unconstitutional.
C. Severability
We need not determine whether the bare majority
component,
operating
alone,
would
be
unconstitutional, because we conclude that the
unconstitutional major political party requirement is
not severable from the sections of Article IV, Section
3 relating to the Supreme Court, Superior Court, and
Chancery Court.
Severability of a state statute or constitutional
provision is a question of state law.84 The Chancery
Court has explained that severability analysis under
Delaware law proceeds in two steps: first, courts
consider whether the “unobjectionable” part of the
provision, standing alone, would be capable of
enforcement; and second, courts consider whether the
legislature intended for the unobjectionable part to
stand “in case the other part should fall.” 85 In
determining whether one portion of a statute or
constitutional provision is severable from another,
the “touchstone” must always be legislative intent.86
84

See Contractors Ass’n of E. Pennsylvania, 6 F.3d at 997
(quoting City of Lakewood v. Plain Dealer Pub. Co., 486 U.S.
750, 772 (1988)).
85
Doe v. Wilmington Hous. Auth., 88 A.3d 654, 669 n. 68
(Del. 2014) (quoting Farmers of Fairness v. Kent Cty., 940 A.2d
947, 962 (Del. Ch. 2008)).
86
Ayotte, 546 U.S. at 330; see also Doe, 88 A.3d at 669 n. 68.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

34a
Here, there is no question that the bare majority
component is capable of standing alone, as it does in
the provisions of Article IV, Section 3 involving the
Family Court and the Court of Common Pleas. But
because we do not think the two components were
intended to operate separately, we find that the
major political party component is not severable.
For nearly seventy years, the bare majority
component and the major political party component
have been intertwined in the sections of Article IV,
Section 3 pertaining to the Supreme Court, Chancery
Court, and Superior Court. Both components operate
in tandem to dictate the bi-partisan makeup of
Delaware’s courts. Operating alone, the bare
majority component could be interpreted to allow a
Governor to appoint a liberal member of the Green
Party to a Supreme Court seat when there are
already three liberal Democrats on that bench. Only
with the (unconstitutional) major political party
component does the constitutional provision fulfil its
purpose of preventing single party dominance while
ensuring bipartisan representation.87
Against this backdrop, the Governor has offered no
evidence suggesting that the Delaware General
Assembly, which authorizes constitutional
amendments, intended for the bare majority
component to stand even if the major political party
component fell. The Governor points to no applicable
87

Cf. id. (finding that two provisions of a housing policy
were not severable when they were “enacted[] together” and one
provision was designed to “enforce compliance” with the other);
Matter of Oberly, 524 A.2d 1176, 1182 (Del. 1987) (explaining
that severance is only possible if the residual component has
“separate purpose and independent legislative significance”).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

35a
severability legislation passed by the General
Assembly, nor has he shown that in the history of
this specific constitutional provision, the General
Assembly conceived of the components as
independent and separable.88
While we are mindful that we should refrain from
invalidating more of a statute than necessary,89 here,
the two substantive components of Article IV, Section
3 are interdependent and equally integral to the
political balance scheme Delaware envisioned for the
Supreme Court, Superior Court, and Chancery Court.
It is not our place to rewrite the balance the General
Assembly struck in crafting Article IV, Section 3
ourselves.90 Finding that the major political party
component cannot be severed, we conclude that the
sections of Article IV, Section 3 containing the major
political party component are unconstitutional and
must be stricken.
88

This case, then, is a far cry from cases like Ayotte and
Executive Benefits Insurance Agency v. Arkinson, upon which
the Governor relies. In both cases, the laws at issue contained
severability clauses that are not present here. See Ayotte, 546
U.S. at 331; Exec. Benefits Ins. Agency, 573 U.S. 25, 36 (2014);
see also State v. Dickerson, 298 A.2d 761, 766 (Del. 1972),
abrogated on other grounds by Woodson v. North Carolina, 428
U.S. 280 (1976) (finding statutory provisions severable because
of Delaware’s general severability statute).
89
Cf. Dickerson, 298 A.2d at 766 n. 11 (“Any doubt, as to
the correctness of our conclusion on severability, is resolved by
the maxims that a statute must be held valid if it is possible for
the court to do so; that every presumption must be resolved in
favor of its validity; and that it should not be declared
unconstitutional unless the court is convinced of that status
beyond a reasonable doubt.”).
90
See Ayotte, 546 U.S. at 329 (“[W]e restrain ourselves
from rewriting state law . . . even as we strive to salvage it.”
(internal punctuation marks and citation omitted)).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

36a
III. Conclusion
For the foregoing reasons, we find that Adams has
shown that his freedom of association rights were
violated by the political balance requirement that
prevented his application to the Supreme Court,
Superior Court, and Chancery Court. Therefore, we
conclude that the first three sections of Article IV,
Section 3 violate the First Amendment. We affirm
the District of Delaware’s order granting summary
judgment to Adams on those sections. Because
Adams had no standing to challenge the sections of
Article IV, Section 3 dealing with the Family Court
and the Court of Common Pleas, however, we reverse
the District of Delaware’s order as it pertained to
those sections.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

37a
McKEE, Circuit Judge, concurring. Judges Restrepo
and Fuentes join.
I join my colleagues’ thoughtful opinion in its
entirety. I write separately merely to add the
perspective of someone who has served as a state
court judge in a jurisdiction that selects judges in
general elections preceded by partisan political
campaigning and the fundraising that is endemic to
political campaigns. In doing so, I certainly do not
mean to in anyway cast aspersions upon the many
dedicated, intelligent and hardworking men and
women whom the electorate in such jurisdictions
ultimately select to serve as judges. I only wish to
note the potential damage to the image of the
judiciary in such jurisdictions and the extent to
which it can undermine the public’s faith in the
judges who are elected.1
All of us have a keen understanding of, and
appreciation for, the fact that the provisions we
strike down today were enacted to ensure selection of
1

The criticism of systems where judges are elected has
stressed the importance of such irrelevant factors as campaign
contributions and the importance of ballot position. See The
Inquirer Editorial Board, Editorial, Close Down the Circus:
Replace Judicial Elections with Merit Selection, P HILA .
INQUIRER, (July 13, 2018) (http://www.philly.com/philly/opinion/
editorials/judicial-election-merit-selection-pennsylvania-electionreform-20180713.html) (“In Pennsylvania we elect judges in
partisan elections . . . The corrosive effects of money work over
time until it is impossible for people to trust the court system.”);
Ryan Briggs, Does Ballot Position Matter? Science Says ‘Yes,’
C I T Y A N D S T A T E P E N N S Y L V A N I A (Dec. 20, 2016),
https://www.cityandstatepa.com/content/does-ballot-position-mat
ter-science-says-%E2%80%98yes%E2%80%99 (last visited Jan.
17, 2019) (“Sheer luck has more to do with becoming [a] judge in
the city [of Philadelphia] than experience or endorsements.”).

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

38a
a judiciary whose political balance would serve notice
that judicial decisions were devoid of politics and
political motivations. Paradoxically, by elevating
one’s political affiliation to a condition precedent to
eligibility for appointment to the bench by the
Governor, Delaware has institutionalized the role of
political affiliation rather than negated it. As we
explain, the resulting system of judicial selection is
in conflict with the First Amendment right of
association even though it has historically produced
an excellent judiciary; accordingly, it cannot survive
this First Amendment challenge. Although this is as
paradoxical as it is ironic, it is really not surprising
that the judicial system that has resulted from
Delaware’s political balance requirements is as
exemplary as the judges who comprise it.
In 2011, then-Delaware Supreme Court Justice
Randy J. Holland presciently observed that the
“political balance provisions appear to prevent the
appointment of persons belonging to a third political
party or having no party affiliation. To date,
however, there has been no court challenge to this
requirement under the United States Constitution.”2
Justice Holland’s observation about the absence of
challenges to the 122 year-old constitutional
framework that plainly implicates the First
Amendment is understandable given the well-earned
excellent reputation of the state courts it has
produced.
Praise for the Delaware judiciary is nearly
universal, and it is well deserved. Scholars and
academics routinely refer to Delaware’s courts as the
2

Randy J. Holland,
CONSTITUTION 149 (2011).

THE

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

DELAWARE

STATE

AL 8/15/19

39a
preeminent forum for litigation, particularly for cases
involving business disputes. 3 On the bicentennial
anniversary of the establishment of the Court of
Chancery, then-Chief Justice Rehnquist observed
that the “Delaware state court system has
established its national preeminence in the field of
corporation law” and identified such hallmarks of the
Court of Chancery as its “[j]udicial efficiency and
expertise, a well-paid and well-respected judiciary,
innovative judicial administration [and] courageous
leadership.”4 Members of the Delaware bench credit
the political balancing requirement for at least part
of this success. 5 With that national reputation so
3

See, e.g., Omari Scott Simmons, Delaware’s Global
Threat, 41 J. OF C ORP . L. 217, 224 (2016) (referring to the
“preeminence of Delaware’s courts in resolving corporate
disputes”); Ehud Kamar, A Regulatory Competition Theory of
Indeterminacy in Corporate Law, 98 COLUMBIA L. REV. 1908,
1926 (1998) (“Delaware courts have earned a unique reputation
for quality adjudication”).
4
William H. Rehnquist, Chief Justice of the United
States, Address at the Bicentennial of the Delaware Court of
Chancery (Sep. 18, 1992) in The Prominence of the Delaware
Court of Chancery in the State-Federal Joint Venture of
Providing Justice, 48 THE BUSINESS LAWYER 1 (1992).
5
See, e.g., Devera B. Scott, et al., The Assault on Judicial
Independence and the Uniquely Delaware Response, 114 PENN
ST. L. REV. 217, 243 (2009) (quoting President Judge Jan R.
Jurden as saying the “Delaware judicial nominating process
goes to great pains to ensure a balanced and independent
judiciary, and, therefore, it is no surprise that the public
perceives Delaware courts as fair arbiters of justice.”); E.
Norman Veasey & Christine T. Di Guglielmo, What Happened
in Delaware Corporate Law and Governance from 1992-2004? A
Retrospective on Some Key Developments, 153 U. PA. L. REV.
1399, 1401 (2005) (former Chief Justice of the Delaware
Supreme Court stating that Delaware’s judicial “system has

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

40a
firmly established, it is perhaps not surprising that
attorneys contemplating judicial candidacy have not
previously challenged this constitutional framework.6
served well to provide Delaware with an independent and
depoliticized judiciary and has led . . . to Delaware’s
international attractiveness as the incorporation domicile of
choice.”); Leo E. Strine, Jr., The Delaware Way: How We Do
Corporate Law and Some of the New Challenges We (and
Europe) Face, 30 DEL. J. CORP. L. 673, 683 (2005) (Chief Justice
of the Delaware Supreme Court noting that its judicial selection
process has resulted “in a centrist group of jurists committed to
the sound and faithful application of the law.”).
6
Indeed, one of this court’s two courtrooms is named for
Collins J. Seitz; a legendary judge of national prominence who
served with great distinction as a judge on the Delaware Court
of Chancery before being appointed to this court by President
Johnson in 1966.
While sitting on the Delaware Court of Chancery, Judge
Seitz decided Belton v. Gebhart, 87 A.2d 862 (1952) in which he
courageously ordered the desegregation of the Delaware public
schools two years before the United States Supreme Court
struck down the doctrine of “separate but equal” in Brown v.
Bd. Of Educ. 347 U.S. 483 (1954). The appeal from his decision
there was one of the four consolidated cases before the Court in
Brown where the Supreme Court affirmed the view Judge Seitz
had expressed in ordering the desegregation of the Delaware’s
schools rather than ordering Delaware to make its “Negro”
schools equal to those serving White students. In Belton, Judge
Seitz based his ruling on his factual conclusion that the Negro
schools were inferior to White schools and therefore not equal;
the approach that was then required under Plessy v. Ferguson,
163 U.S. 537 (1896).
Nevertheless, in reaching his decision, Judge Seitz
clearly stated that the doctrine of Plessy was itself an anathema
to the United States Constitution because segregated schools
were, by definition, unequal. Foreshadowing Brown, he wrote: “I
believe that the ‘separate but equal’ doctrine in education
should be rejected, but I also believe its rejection must come
from [the Supreme Court.].” Belton, 87 A.2d at 865. His decision
was later aptly described as a demonstration of Judge Seitz’s

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

41a
But that excellence cannot justify the
constitutional transgression that is baked into the
selection process. As we explain,7 despite the state’s
interest in achieving a judicial system that is as fair
in fact as it is in appearance, the provisions of the
Delaware Constitution restricting who can apply for
judicial appointment are not narrowly tailored to
achieve their laudatory objectives. Accordingly, we
need not decide whether Delaware has a “vital state
interest” that justifies the limitations on political
affiliation. That question may be decided in a future
case. Moreover, Delaware may choose to amend its
Constitution in a manner that achieves the goals of
the problematic political affiliation requirements
without their attendant constitutional infirmities.
No matter what ensues, I have little doubt that the
constitutional provisions which we today invalidate
have resulted in a political and legal culture that will
ensure the continuation of the bipartisan excellence
of Delaware’s judiciary. That culture appears to be so
firmly woven into the fabric of Delaware’s legal
tradition that it will almost certainly endure in the
absence of the political affiliation requirements that
run afoul of the First Amendment.

“courage and moral clarity.” William T. Allen, The Honorable
Collins J. Seitz: Greatness in a Corporate Law Judge, 16 FALL
DEL. LAW 5, 3. (1998).
It is particularly appropriate to mention Judge Collins
Seitz here because he is such a dramatic example of the judicial
excellence I am referring to in extolling Delaware’s judiciary.
7
Maj. Op, at 24–25.

79561 • WILSON • APPENDIX A: PRECEDENTIAL DECISION

AL 8/15/19

42a
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

__________
No. 18-1045

__________
JAMES R. ADAMS,
v.
GOVERNOR OF DELAWARE,

__________

Appellant

On Appeal from the United States District Court
for the District of Delaware
(D.C. No. 1-17-cv-00181-MPT)
Honorable Mary Pat Thynge, U.S. Magistrate Judge

__________
Argued September 25, 2018
Before: MCKEE, RESTREPO, and FUENTES,
Circuit Judges.

79561 • WILSON • APPENDIX B: 3 CC JUDGMENT 4-10-19

AL 8/16/19

43a

__________
JUDGMENT

__________
This cause came to be considered from the United
States District Court for the Delaware and was
argued on September 25, 2018. On consideration
whereof, it is now hereby ORDERED and
ADJUDGED by this Court that the revised
judgment of the District Court entered on May 23,
2018 granting the Appellee’s motion for summary
judgment and denying the Appellant’s motion for
summary judgment and the order entered May 23,
2018 denying the Appellant’s motion for
reconsideration are AFFIRMED in part and
REVERSED in part. Each party to bear its own
costs. All of the above in accordance with the Opinion
of this Court.
Attest:
s/ Patricia S. Dodszuweit
Clerk
DATED: April 10, 2019

79561 • WILSON • APPENDIX B: 3 CC JUDGMENT 4-10-19

AL 8/16/19

44a
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

__________
No. 18-1045

__________
JAMES R. ADAMS
v.
GOVERNOR OF DELAWARE,

__________

Appellant

(D. Del. No. 1-17-cv-00181)

__________
SUR PETITION FOR REHEARING

__________

79561 • WILSON • APPENDIX C: 3 CC SUR PETITION 5-7-19

AL 8/16/19

45a
Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN**, HARDIMAN**,
GREENAWAY, JR., SHWARTZ, KRAUSE**,
RESTREPO, BIBAS**, PORTER, MATEY, and
FUENTES,* Circuit Judges
The petition for rehearing filed by appellant, in the
above-entitled case having been submitted to the judges
who participated in the decision of this Court and to all
the other available circuit judges of the circuit in
regular active service, and no judge who concurred in
the decision having asked for rehearing, and a majority
of the judges of the circuit in regular service not having
voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ Julio M. Fuentes
Circuit Judge
Dated: May 7, 2019
Lmr/cc: David L. Finger
Pilar G. Kraman
Martin S. Lessner
David C. McBride

*
Pursuant to Third Circuit I.O.P. 9.5.3., Judge Fuentes’s
vote is limited to panel rehearing.
**
Judges Jordan, Hardiman, Krause, and Bibas voted to
grant rehearing.

79561 • WILSON • APPENDIX C: 3 CC SUR PETITION 5-7-19

AL 8/16/19

46a
Appendix D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE

__________
C. A. No. 17-181-MPT

__________
JAMES R. ADAMS,
v.

Plaintiff,

HONORABLE JOHN CARNEY,
Governor of the State of Delaware

__________

Defendant.

MEMORANDUM ORDER
I.

INTRODUCTION

On February 21, 2017, Plaintiff, James R. Adams
(“plaintiff”), filed this action, pursuant to 42 U.S.C. §
1983, seeking Declaratory Judgment and Injunctive
Relief against the Governor of the State of Delaware,
John Carney (“defendant”).1 Plaintiff seeks review of
the constitutionality of provisions found in Article IV,
§ 3 of the Constitution of the State of Delaware
known as the “Political Balance Requirement.”2 The
1
2

D.I. 1; see also D.I. 10.
D.I. 10; see also D.I. 29 at 4; Del. Const. art. IV, § 3.

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

47a
Political Balance Requirement subjects all
appointments to the office of the State Judiciary to a
series of limitations relating to the political
affiliation of judicial appointees.3 These limitations
consist broadly of requirements that: (1) not more
than a “bare majority”4 of the offices in the Supreme
Court or Superior Court “shall be of the same
political party;” (2) collectively, not more than a “bare
majority” of “the Justices of the Supreme Court, the
Judges of the Superior Court, the Chancellor and all
the Vice-Chancellors shall be . . . of the same major
political party[;]”5 and (3) “the remaining members of
such [judicial] offices shall be of the other major
political party.”6 Similarly, the Family Court and the
Court of Common Pleas are subject to limitations in
which, in the case of an even number of judges on the
court, “not more than one-half of the Judges shall be
of the same political party[,]” and in the case of an
odd number of judges, “not more than a majority of
one Judge shall be of the same political party.”7
3

Del. Const. art. IV, § 3; see also D.I. 40 at 2-4.
Section 3 distinguishes between courts with an even
number of seats, in which “not more than one-half of the
members of all such offices shall be of the same political
party[,]” and courts with an odd number of seats, in which “not
more than a bare majority of the members of all such offices
shall be of the same major political party[.]” Del. Const. Art. IV,
§ 3. Defendant refers to these two requirements collectively as
the “Bare Majority Component.” D.I. 29 at 4-5 & n.1.
5
Major political party is defined as “any political party
which, as of December 31,of the year immediately preceding any
general election year, has registered in the name of that party
voters equal to at least five percent of the total number of voters
registered in the State.” 15 Del. C. § 101(15).
6
Del. Const. art. IV, § 3.
7
Id.
4

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

48a
Plaintiff filed an amended complaint on April 10,
2017.8 In the amended complaint, Plaintiff asked the
court to:
[E]nter an Order (i) holding that the
provision of Article IV, Section 3 of the
Constitution of the State of Delaware
mandating political balance on the courts is
unconstitutional as it violates the freedom of
association guaranteed by the First
Amendment to the Constitution of the
United States, (ii) permanently enjoining the
use of political affiliation as a criterion for
the appointment of judges to the Courts of
Delaware, and (iii) awarding Mr. Adams his
costs and reasonable attorneys’ fees
pursuant to 42 U.S.C. §1988.9
On September 29, 2017, the parties filed crossmotions for summary judgment. 10 In his motion,
Plaintiff argued that Article IV, § 3 restricts
Delaware state government employment based on
political affiliation in violation of the First
Amendment of the Constitution of the United
States. 11 Meanwhile, in defendant’s motion for
summary judgment, defendant contended that
plaintiff had failed to establish standing under
Article III, § 2 of the Constitution of the United
States.12 Defendant argued in the alternative that
that the position of judge is a “policymaking
8
9
10
11
12

D.I. 10.
Id. at 11.
D.I. 17; D.I. 31.
D.I. 32 at 2.
U.S. Const. art. III, § 2.

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

49a
position,” which defendant contends falls under the
well-established exception to the restriction of
governmental employment based on political
affiliation.13 On December 6, 2017, the court issued a
memorandum opinion and order (“Memorandum
Opinion” and “Order”) granting plaintiff’s motion for
summary judgment and denying defendant’s motion
for summary judgment.14
On December 19, 2018, plaintiff moved for an
award of attorney’s fees and costs under 42 U.S.C. §
1988.15 The following day, defendant moved for the
court to reconsider or clarify its Memorandum
Opinion and Order pursuant to Federal Rule of Civil
Procedure 60 and D. Del. LR 7.1.5.16 On January 5,
2018, defendant appealed to the United States Court
of Appeals for the Third Circuit.17 Defendant then
moved for the court to defer ruling on the award of
attorney’s fees and costs pending the appeal. 18
Thereafter, on February 21, 2018, plaintiff moved for
issuance of an order for defendant to show cause as
to why defendant should not be held in contempt for
violating the court’s December 6, 2017 Order.19 These
motions are presently before the court.

13
14
15
16
17
18
19

D.I. 29 at 3.
D.I. 40; D.I. 39.
D.I. 41.
D.I. 42.
D.I. 50.
D.I. 51.
D.I. 57.

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

50a
II. STANDARD OF REVIEW
A. Motion for Reconsideration
Motions for reconsideration are the “functional
equivalent” of a motion to alter or amend judgment
under Federal Rule of Civil Procedure 59(e). 20
Meeting the standard for relief under Rule 59(e) is
difficult. The purpose of a motion for reconsideration
is to “correct manifest errors of law or fact or to
present newly discovered evidence.”21 A court should
exercise its discretion to alter or amend its judgment
only if the movant demonstrate one of the following:
(1) a change in the controlling law; (2) a need to
correct a clear error of law or fact or to prevent
manifest injustice; or (3) availability of new evidence
not available when the judgment was granted.22
A motion for reconsideration is not properly
grounded on a request that a court rethink a decision
already made.23 Nor may motions for reargument or
reconsideration be used “as a means to argue new
facts or issues that inexcusably were not presented to
the court in the matter previously decided.” 24
Reargument, however, may be appropriate where a
court “has patently misunderstood a party, or has
made a decision outside the adversarial issues
20

Jones v. Pittsburgh Nat’l Corp., 899 F.2d 1350, 1352 (3d
Cir. 1990) (citing Fed. Kemper Ins. Co. v. Rauscher, 807 F.2d
345, 348 (3d Cir. 1986)).
21
Max’s Seafood Café ex rel. Lou-Ann, Inc. v. Quinteros,
176 F.3d 699, 677 (3d Cir. 1999).
22
Id.
23
Glendon Energy Co v. Borough of Glendon, 836 F. Supp.
1109, 1122 (E.D. Pa. 1993).
24
Brambles USA, Inc. v. Blocker, 735 F. Supp. 1239, 1240
(D. Del. 1990).

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

51a
presented to the [c]ourt by the parties, or has made
an error not of reasoning but of apprehension.”25
The “Court should not hesitate to grant the motion
when compelled to prevent manifest injustice or
correct clear error.”26 This court has granted motions
to clarify ambiguities in its opinions and orders.27
B. Motion for Fees and Costs
The right to reasonable attorney’s fees is provided
under 42 U.S.C. § 1988: “[i]n any action or proceeding
to enforce a provision of [42 U.S.C.] section[] . . .
1983, . . . . the court, in its discretion, may allow the
prevailing party . . . a reasonable attorney’s fee as
part of the costs[.]”28 In order to qualify, a plaintiff
must be designated as “prevailing party,”29 a term
which has been defined as any party who “succeed[s]
on any significant issue in litigation which achieves
some of the benefit the parties sought in bringing
suit.”30 A key factor is that the plaintiff “must be able
to point to a resolution of the dispute which changes
the legal relationship between itself and the
25

Id. at 1241 (citations omitted); see also D. Del. LR 7.1.5.
Brambles USA, 735 F.Supp. at 1241 (citations omitted).
27
Helios Software, LLC v. SpectorSoft Corp., No. CV 1281-LPS, 2015 WL 3622399, at *1 (D. Del. June 5, 2015);
Organizational Strategies, Inc. v. Feldman Law Firm LLP, No.
CV 13-764-RGA, 2014 WL 2446441, at *1-2 (D. Del. May 29,
2014); Neomagic Corp. v. Trident Microsystems, No. 1:98CV00699-KAJ, 2003 WL 25258274, at *3 (D. Del. July 30, 2003)
28
42 U.S.C. § 1988.
29
Farrar v. Hobby, 506 U.S. 103, 109 (1992).
30
Hensley v. Eckerhart, 461 U.S. 424, 433 (1983) (internal
quotation marks omitted) (citing Nadeau v. Helgemoe, 581 F.2d
275, 278-79 (1st Cir.1978) (overruled on other grounds).
26

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

52a
defendant.”31 This is usually accomplished through a
judgment on the merits.32 Under Rule 54(d)(2), “if an
appeal on the merits of a case is pending, a court
‘may rule on the claim for fees, may defer its ruling
on the motion, or may deny the motion without
prejudice, directing . . . a new period for filing after
the appeal has been resolved.’”33
C. Motion for an Order to Show Cause
“The Court has wide discretion in determining
sanctions in a civil contempt matter.”34 “Sanctions for
civil contempt serve two purposes: to coerce the
defendant into compliance with the court’s order and
to compensate for losses sustained by the
disobedience.”35
31

Texas State Teachers Ass’n v. Garland Indep. Sch. Dist.,
489 U.S. 782, 792 (1989) (citing Hewitt v. Helms, 482 U.S. 755,
760-61 (1987)).
32
Farrar, 506 U.S. at 111 (citations omitted) (“The
plaintiff must obtain an enforceable judgment against the
defendant from whom fees are sought, or comparable relief
through a consent decree or settlement.”).
33
Walker Digital, LLC v. Expedia, Inc., No. CV 11-313SLR, 2013 WL 5662145, at *2 (D. Del. Oct. 16, 2013) (quoting
Fed. R. Civ. P. 54, Advisory Committee Note, 1993 Amendment,
Subdivision (d), Paragraph (2), Subparagraph (B)).
34
Virium BV v. Lithium Tech. Corp., No. CV 13-500-LPS,
2016 WL 4182742, at *2 (D. Del. Aug. 5, 2016) (citing Elkin v.
Fauver, 969 F.2d 48, 52 (3d Cir. 1992)).
35
Robin Woods Inc. v. Woods, 28 F.3d 396, 400 (3d Cir.
1994) (internal quotation marks omitted) (citing McDonald’s
Corp. v. Victory Investments, 727 F.2d 82, 87 (3d Cir.1984)); see
also McComb v. Jacksonville Paper Co., 336 U.S. 187, 191
(1949); In re Linerboard Antitrust Litig., 361 F. App’x 392, 39899 (3d Cir. 2010).

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

53a
III. DISCUSSION
A. Motion for
Clarification

Reconsideration

or

Defendant argues that there are three reasons why
the court’s Memorandum Opinion and Order requires
either reconsideration or clarification. 36 First,
defendant questions whether the court’s Order
“reaches the provisions of Article IV, Section 3
concerning the Family Court and the Court of
Common Pleas.”37 Second, defendant asks whether
the court’s Order “invalidates only the provisions of
Article IV, Section 3 that arguably require that
judicial nominees be members of one political party
or also invalidates the provisions that limit any
political party to a ‘bare majority’ of the members of
the Court.”38 Third, defendant seeks clarification as
to whether the court’s determination, that plaintiff
lacked Article III standing to challenge the “bare
majority” provision as it applies to the Court of
Common Pleas and Family Court,39 “also applies to
‘bare majority’ provisions that pertain to all of the
courts.”40
In response, plaintiff disputes the court’s finding as
to Article III standing with respect to the Court of
Common Pleas and the Family Court.41 And plaintiff
contends that, regardless of whether he “had
standing to challenge the political restrictions as to
36
37
38
39
40
41

D.I. 42 at 2-4.
Id. at 2.
Id. at 3.
D.I. 40 at 7.
D.I. 42 at 4.
D.I. 43 at 1 n.1.

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

54a
. . . [the Family Court and Court of Common Pleas],
the reasoning of this [c]ourt is applicable to all
Delaware State courts.”42
During the briefing on defendant’s motion for
summary judgment for lack of standing, defendant
characterized the Political Balance Requirement as
consisting of two types of provisions limiting
appointments to judicial office: (1) “Bare Majority”
provisions and (2) Major Party provisions. 43 In
moving for reconsideration or clarification, defendant
points to the court’s discussion of plaintiff’s lack of
Article III standing with respect to the Court of
Common Pleas and the Family Court, which are
judicial offices limited exclusively by Bare Majority
provisions.44 Defendant essentially argues that the
court’s ruling cannot extend beyond the Major Party
provisions of Article IV, § 3, because these are the
only provisions that give rise to plaintiff’s Article III
standing. 45 Therefore, defendant avers, in
reconsidering or clarifying the court’s December 6,
2017 Memorandum Opinion and Order, the court
should revise its Memorandum Opinion and Order to
effectively “redline” Article IV, § 3 to eliminate the
Major Party provisions as to the Supreme Court, the
Superior Court, and the Court of Chancery, while
42

Id. at 2.
D.I. 29 at 5 nn.1-2. In note 2, defendant actually uses
the term “Majority Political Party Component”—the court finds
the use of the term “majority” in both nomenclatures to be
confusing and, therefore, refers to this aspect of Article IV, § 3
as the “Major Party provisions.”
44
D.I. 42 at 2.
45
Id. at 2-4.
43

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

55a
preserving the Bare Majority provisions as to all
judicial offices.46
Defendant’s position on reconsideration or
clarification is that the court can (and must have
intended to) only issue judgment on the
constitutionality of the specific, Major Party,
provisions of Article IV, § 3 of the Constitution of the
State of Delaware that give rise to plaintiff’s Article
III standing.47 This is an argument about prudential
standing. Without using the term “prudential
standing” anywhere in its briefs on reconsideration
or clarification, defendant contends that plaintiff
does not have prudential standing to challenge the
Bare Majority provisions, because the court only
found that plaintiff has Article III standing to
challenge the Major Party provisions.48
1.

Reconsideration

Defendant directs the court’s attention to pages 7-8
of D.I. 40, the court’s December 6, 2017 Memorandum
Opinion 49 as the basis for defendant’s motion for
reconsideration or clarification.50 In this portion of
the its Memorandum Opinion, the court addressed
the question of plaintiff’s Article III standing.51 With
respect to the Family Courts and the Courts of
46

D.I. 49 at 3.
D.I. 42 at 4 (“In reading pages 7-8 of the Memorandum
Opinion, it appears that this Court intended to invalidate only
the ‘major party’ feature of Article IV.”).
48
Id.
49
D.I. 40 at 7-8.
50
D.I. 42 at 4.
51
D.I. 40 at 7-8.
47

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

56a
Common Pleas, which are limited by Bare Majority
provisions, the court stated:
Plaintiff does not have standing under
provisions four and five [of Article IV, § 3 of
the Constitution of the State of Delaware].
He has not applied for a judicial position in
any of Family Courts or the Courts of
Common Pleas. In addition, plaintiff’s
applications for these positions would not
have been futile, because there is no party
requirement constitutionally attached to
either court. The only constitutional
restriction on these courts is that “not more
than a majority of one Judge shall be of the
same political party.”52
However, this determination was not fatal to
plaintiff’s standing, as the court found that plaintiff
had established Article III standing with respect to
provisions one through three of Article IV, § 3 of the
Constitution of the State of Delaware.53
Prudential standing was a minor factor in
defendant’s summary judgment briefing, with
defendant spending a little more than one page of its
opening brief on the subject. 54 In moving for
reconsideration, defendant does not argue that: (1)
the court misunderstood defendant’s prudential
standing arguments; (2) the court made a decision
about prudential standing outside the adversarial
issues presented to the court by the parties; or (3) the
52
53
54

D.I. 40 at 7 (footnotes omitted).
Id. at 7-8.
D.I. 29 at 16-18.

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

57a
court has made an error not of reasoning but of
apprehension.55
From the record, it is apparent that defendant is
presently making an argument that it did not make
in its briefing on summary judgment.56 At that time,
defendant argued that plaintiff had failed to satisfy
the limitations on prudential standing, because
plaintiff was asking the court to adjudicate an
abstract question of wide public significance which
amounts to a generalized grievance. 57 Defendant,
however, did not argue, for example, that—were the
court to find that plaintiff has Article III standing as
to some provisions of Article IV, § 3—plaintiff’s
prudential standing would be explicitly limited to
only those specific provisions for which he has Article
III standing.58
Moreover, in his briefing, defendant failed to rebut
plaintiff’s argument to the contrary. 59 Plaintiff
opposed defendant’s motion for summary judgment
and averred that plaintiff has prudential standing to
55

D.I. 42 at 2-4; see also Tinney v. Geneseo Commc’ns, Inc.,
502 F. Supp. 2d 409, 415 (D. Del. 2007).
56
D.I. 29 at 16-18; D.I. 37 at 3-4.
57
See D.I. 29 at 17 (“Here, Plaintiff is asking this Court to
decide abstract questions of wide public significance.”); D.I. 37
at 3 (“Plaintiff is asking this Court to decide abstract questions
of wide public significance that establish the bedrock of
Delaware’s judicial branch.”).
58
Id. at 16-18.
59
Compare D.I. 35 at 9-11 (plaintiff’s prudential standing
argument in plaintiff’s brief opposing defendant’s motion for
summary judgment), with D.I. 37 at 3-4 (defendant’s prudential
standing argument in defendant’s reply brief in support of
defendant’s motion for summary judgment).

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

58a
challenge the entirety of Article IV, § 3, regardless of
the scope of his Article III standing.60 For example,
plaintiff cited Virginia v. Am. Booksellers Ass’n, 484
U.S. 383, 392-93 (1988),61 which states:
Even if an injury in fact is demonstrated, the
usual rule is that a party may assert only a
violation of its own rights. However, in the
First Amendment context, “[l]itigants . . .
are permitted to challenge a statute not
because their own rights of free expression
are violated, but because of a judicial
prediction or assumption that the statute’s
very existence may cause others not before
the court to refrain from constitutionally
protected speech or expression.”62
Plaintiff contended that this case stands for the
proposition that “[w]here a party raises a facial
challenge to a law pursuant to the First Amendment,
general prudential standing requirements are
relaxed.”63 Yet defendant did not acknowledge this
argument, discuss it, or address any of the prudential
standing case law cited by plaintiff.64 Moreover, aside
from the briefing discussed herein,65 defendant did
not make any other prudential standing arguments
60

D.I. 35 at 9-10.

61

Id. at 10.
Virginia v. Am. Booksellers Ass’n, Inc., 484 U.S. 383,
392–93 (1988) (alteration in original) (quoting Sec’y of State of
Md. v. Joseph H. Munson Co., 467 U.S. 947, 956- 57 (1984).
63
D.I. 35 at 10.
64
D.I. 37 at 3-4.
65
D.I. 29 at 16-18; D.I. 37 at 3-4.
62

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

59a
elsewhere in the briefing on the cross motions for
summary judgment.66
In the briefing on summary judgment, defendant
failed to rebut plaintiff’s arguments on prudential
standing. Defendant presently seeks reconsideration
and an opportunity to make arguments that he did
not make in the briefing. This is beyond the scope of
the remedy requested or allowed. 67 Therefore,
defendant’s motion for reconsideration (D.I. 42) is
DENIED.
2.

Clarification

Upon review of the briefs and the record, it is
apparent that the court did not fully explain the
question of prudential standing in its December 6,
2017 Memorandum Opinion.68 The court agrees that
clarification will simplify the record for appeal and
GRANTS defendant’s motion for clarification (D.I.
42). Therefore, the court will issue a separate,
clarified version of its December 6, 2017 Memorandum
Opinion.
B. Fees
Plaintiff’s motion for fees and costs lacks the
statement, required by Local Rule 7.1.1, that plaintiff
had made a reasonable effort to reach agreement
with defendant on fees and costs. 69 Moreover, an
appeal on the merits is pending. Therefore, the court
66

See D.I. 34 (defendant’s brief opposing plaintiff’s motion
for summary judgment).
67
Max’s Seafood Café, 176 F.3d at 677.
68
D.I. 40 at 6-7 (citing the test for prudential standing but
not discussing the subject further).
69
D.I. 41; see also D. Del. LR 7.1.1.

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

60a
DENIES plaintiff’s motion for fees and costs (D.I. 41)
without prejudice to renew.70 As a result, defendant’s
motion to defer ruling on fees and costs pending
appeal (D.I. 51) is granted.
C. Show Cause
Plaintiff’s motion to show cause also lacks the Local
Rule 7.1.1 statement.71 Defendant contends that it has
sought to work, in good faith, within the bounds of
what it contends is the court’s holding.72 Given the
court’s grant of defendant’s motion to clarify, a hearing
on contempt is inappropriate at this time. Thus, the
court DENIES plaintiff’s motion for an order to show
cause (D.I. 57) without prejudice to renew.
IV. CONCLUSION
For the reasons discussed herein, plaintiff’s motion
for reconsideration (D.I. 42) is denied; plaintiff’s
motion for clarification (D.I. 42) is granted; plaintiff’s
motion for fees and costs (D.I. 41) is denied without
prejudice; defendant’s motion to defer ruling on fees
and costs pending appeal is granted (D.I. 51) and
plaintiff’s motion for an order to show cause (D.I. 57)
is denied without prejudice. As a result of the motion
for clarification, the court will issue a clarified version
of its December 6, 2017 Memorandum Opinion.
Dated: May 23, 2018

70
71
72

/s/ Mary Pat Thynge
Chief U.S. Magistrate Judge

See supra note 33.
D.I. 57.
D.I. 58 at 4-5 & n.4.

79561 • WILSON • APPENDIX D: DC MEMORANDUM ORDER 05-23-18

AL 8/19/19

61a
Appendix E
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE

__________
C. A. No. 17-181-MPT

__________
JAMES R. ADAMS,
v.

Plaintiff,

THE HON. JOHN CARNEY : Governor of the
State of Delaware, :
Defendant.

__________

MEMORANDUM OPINION CLARIFYING
THE COURT’S OPINION
ISSUED DECEMBER 6, 2017
David L. Finger, Esq., Finger & Slanina, LLC, One
Commerce Center, 1201 North Orange Street, 7th
Floor, Wilmington, DE 19801. Attorney for Plaintiff
James R. Adams.
Christian D. Wright, Department of Justice Civil
Division, 820 North French Street, 8th Floor,
Wilmington, DE 19801.
Attorney for Defendant the Honorable John Carney,
Governor of the State of Delaware.

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

62a
Ryan Patrick Connell, Department of Justice State of
Delaware, Carvel Office Building, 820 North French
Street, 8th Floor, Wilmington, DE 19801.
Attorney for Defendant the Honorable John Carney,
Governor of the State of Delaware.
I.

INTRODUCTION/PROCEDURAL POSTURE

Plaintiff, James R. Adams, filed this Declaratory
Judgment and Injunctive Relief action under 42
U.S.C. § 1983, in relation to Article IV, § 3 of the
Constitution of the State of Delaware, against the
Governor of the State of Delaware, John Carney on
February 21, 2017. 1 Plaintiff seeks review of the
constitutionality of the provision, commonly referred
to as the “Political Balance Requirement,” which
prohibits any political party to comprise more than a
“bare majority” of the seats in the Supreme Court or
Superior Court, or in the Supreme Court, Superior
Court, and Court of Chancery combined. 2 The
provision also requires that the remaining seats be
comprised of members of the “other major political
party.”3
Under consideration in this clarification opinion
are the parties’ cross-motions for summary judgment,
filed on September 29, 2017.4 Plaintiff, in his motion,
contends Article IV, § 3 of the Constitution of the
State of Delaware’s “Political Balance Requirement”
restricts governmental employment based on political
1

D.I. 1; see also D.I. 10 (amended compliant filed on
March 10, 2017).
2
Del. Const. Art. IV, § 3.
3
Id.
4
See D.I. 28; D.I. 31.

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

63a
affiliation, which violates the First Amendment of
the Constitution of the United States.5 Defendant
claims that plaintiff failed to establish standing
under Article III, § 2 of the Constitution of the
United States,6 and/or contends the position of judge
is a “policymaking position,” which falls under the
well established exception to the restriction of
governmental employment based on political
affiliation.7 For the reasons stated herein, the court
grants plaintiff’s motion for summary judgment, and
denies defendant’s motion for summary judgment.
II. BACKGROUND
Article IV, § 3 of the Constitution of the State of
Delaware was amended to its present language in
1897 to provide the requirements and limitations
associated with judicial appointment.8 The pertinent
section reads:
Appointments to the office of the State
Judiciary shall at all times be subject to all
of the following limitations:
First, three of the five Justices of the
Supreme Court in office at the same time,
shall be of one major political party, and two
of said Justices shall be of the other major
political party.
Second, at any time when the total number
of Judges of the Superior Court shall be an
even number not more than one-half of the
5
6
7
8

D.I. 32 at 2.
U.S. const. Art. III, § 2.
D.I. 29 at 3.
D.I. 30 at A-80-84.

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

64a
members of all such offices shall be of the
same political party; and at any time when
the number of such offices shall be an odd
number, then not more than a bare majority
of the members of all such offices shall be of
the same major political party, the
remaining members of such offices shall be
of the other major political party.
Third, at any time when the total number of
the offices of the Justices of the Supreme
Court, the Judges of the Superior Court, the
Chancellor and all the Vice-Chancellors
shall be an even number, not more than onehalf of the members of all such offices shall
be of the same major political party; and at
any time when the total number of such
offices shall be an odd number, then not
more than a bare majority of the members of
all such offices shall be of the same major
political party; the remaining members of
the Courts above enumerated shall be of the
other major political party.
Fourth, at any time when the total number
of Judges of the Family Court shall be an
even number, not more than one-half of the
Judges shall be of the same political party;
and at any time when the total number of
Judges shall be an odd number, then not
more than a majority of one Judge shall be
of the same political party.
Fifth, at any time when the total number of
Judges of the Court of Common Pleas shall
be an even number, not more than one-half
of the Judges shall be of the same political

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

65a
party; and at any time when the total
number of Judges shall be an odd number,
then not more than a majority of one Judge
shall be of the same political party.9
This provision effectively creates a few limitations:
first, it demands three of the Delaware Supreme
Court Justices be from “one major political party,”10
and the other two be from the “other major political
party;” 11 second, at no time may the Delaware
Superior Court or the Delaware Supreme Court,
Superior Court, and Court of Chancery combined,
have more than a “bare majority” be comprised of the
same “major political party,” and the remainder
positions must be of the “other major political
party;” 12 and third, in the Family Courts and the
Courts of Common Pleas, one political party may
never possess more than a one judge majority.13
Defendant, as Governor of the State of Delaware, is
responsible for appointing judges in compliance with
Article IV, § 3 of the Constitution of the State of
Delaware. 14 In 1977, a Judicial Nominating
Commission was created by executive order to
identify highly qualified candidates.15 To fulfill this
9

Del. Const. Art. IV, § 3.
Major political party is defined as “any political party
which, as of December 31, of the year immediately preceding
any general election year, has registered in the name of that
party voters equal to at least five percent of the total number of
voters registered in the State.” 15 Del. C. § 101(15).
11
Id.
12
Del. Const. Art. IV, § 3.
13
Id.
14
Del. Const. Art. IV, § 3.
15
D.I. 32 at 3.
10

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

66a
role, the Commission provides notice for existing
judicial vacancies.16 The required party affiliation is
listed within the notice, as “must be a member of the
[Democratic or Republican] party,” when necessary
because of Delaware’s constitutional limitations.17
The Committee then provides a list of qualified
candidates to defendant for selection.18
Plaintiff is a graduate of Ursinus College and
Delaware Law School. 19 He is a resident of New
Castle County and a member of the Delaware bar.20
Plaintiff worked in multiple positions before retiring
from the Department of Justice on December 31,
2015.21 After retirement, he remained on emeritus
status from the bar before returning to active status
in 2017. 22 Until February 13, 2017, plaintiff was
registered as affiliated with the Democratic party.23
Plaintiff, during that time, applied for one position,
Family Court Commissioner. 24 Now plaintiff is
registered as an independent voter.25 On February
14, 2017, the Judicial Nominating Commission
released a Notice of Vacancy calling for a Republican
16

D.I. 30 at A-107-17.
Id.
18
Id.
19
D.I. 10 at 1.
20
Id.
21
Id. at 1-2.
22
Id. at 4.
23
D.I. 30 at A-55.
24
Plaintiff was not selected for the Commissioner position,
but such positions are not subjected to the “Political Balancing
Requirement” under the Delaware Constitution. D.I. 37 at 1.
25
D.I. 30 at A-55.
17

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

67a
candidate in the Superior Court of Kent County,
following the retirement of the Honorable Robert
Young. 26 On March 20, 2017, the Judicial
Nominating Commission also sent a Notice of
Vacancy following the retirement of the Honorable
Randy Holland, which required a qualified
Republican candidate for the Delaware Supreme
Court.27 Plaintiff, as an unaffiliated voter, was barred
from applying to either position. Plaintiff’s amended
complaint was filed shortly thereafter on April 10,
2017, to which defendant responded on April 24,
2017.28
III. STANDARD OF REVIEW
A. Summary Judgment
A motion for summary judgment should be granted
where the court finds no genuine issues of material
fact from its examination of the pleadings,
depositions, answers to interrogatories, and
admissions on file, together with the affidavits, and
that the moving party is entitled to judgment as a
matter of law. 29 A party is entitled to summary
judgment where “the record, taken as a whole, could
not lead a rational trier of fact to find for the nonmoving party or where the facts are not disputed and
there is no genuine issue for trial.”30
26

D.I. 1 at Ex. A.
D.I. 10 at 4.
28
See id.; D.I. 13.
29
Ford v. Unum Life Ins. Co. of Am., 465 F. Supp. 2d 324,
330 (D. Del. 2006).
30
Delande v. ING Emp. Benefits, 112 F. App’x 199, 200 (3d
Cir. 2004).
27

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

68a
This standard does not change merely because
there are cross-motions for summary judgment. 31
Cross-motions for summary judgment
are no more than a claim by each side that it
alone is entitled to summary judgment, and
the making of such inherently contradictory
claims does not constitute an agreement
that if one is rejected the other is necessarily
justified or that the losing party waives
judicial consideration and determination
whether genuine issues of material fact
exist.32
Moreover, “[t]he filing of cross-motions for summary
judgment does not require the court to grant
summary judgment for either party.”33
B. Standing
“Standing implicates both constitutional
requirements and prudential concerns.”34 For plaintiff
to demonstrate “the irreducible constitutional
minimum of standing” under Article III, § 2 of the
United States Constitution (“Article III standing”),
there must be a showing of: (1) an injury in fact, (2)
with a traceable connection to the challenged action,
and (3) the requested relief will redress the alleged
31

Appleman’s v. City of Philadelphia, 826 F.2d 214, 216
(3d Cir. 1987).
32
Rains v. Cascade Indus., Inc., 402 F.2d 241, 245 (3d Cir.
1968).
33
Krups v. New Castle County, 732 F. Supp. 497, 505 (D.
Del. 1990).
34
Common Cause of Pennsylvania v. Pennsylvania, 558
F.3d 249, 257 (3d Cir. 2009) (citation omitted).

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

69a
injury.35 Plaintiff must show he is likely to experience
actual future injury.36 In addition, plaintiff is not
required to engage in futile gestures to establish
Article III standing.37
Prudential standing requirements exist “to avoid
deciding questions of broad social import where no
individual rights would be vindicated and to limit
access to the federal courts to those best suited to
assert a particular claim.”38 According to the United
States Court of Appeals for the Third Circuit,
prudential limits require that:
(1) a litigant assert his or her own legal
interests rather than those of third parties,
(2) courts refrain from adjudicating abstract
questions of wide public significance which
amount to generalized grievances, and (3) a
litigant demonstrate that [his or] her
interests are arguably within the zone of
interests intended to be protected by the
statute, rule or constitutional provision on
which the claim is based.39 40
35

Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 103
(1998) (internal quotation marks and citations omitted).
36
Voneida v. Pennsylvania, 508 F. App’x 152, 156 (3d Cir.
2012).
37
Sammon v. N.J. Bd. of Med. Exam’rs, 66 F.3d 639 (3d
Cir. 1995).
38
Freeman v. Corzine, 629 F.3d 146, 154 (3d Cir. 2010)
(citations and internal quotation marks omitted).
39
Oxford Assocs. v. Waste Sys. Auth. of E. Montgomery
Cty., 271 F.3d 140, 40-46 (3d Cir. 2001) (alteration and citations
omitted); see also Valley Forge Christian Coll. v. Americans
United for Separation of Church & State, Inc., 454 U.S. 464, 475
(1982) (articulating a similar standard).

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

70a
“Thus, the limits of prudential standing are used to
ensure that those parties who can best pursue a
particular claim will gain access to the courts.”41
IV. ANALYSIS
A. Defendant’s Motion for Summary
Judgment Based on Plaintiff’s Lack of
Standing for Failure to Show Injury in
Fact.
1.

Article III standing

With respect to constitutional standing, there are
effectively two different parts of Article IV, § 3 of the
Constitution of the State of Delaware: provisions one
through three, which contain “major political party”
and “bare majority” requirements, and provisions four
and five, which only include a “bare majority”
requirement.42 Defendant alleges that plaintiff has no
standing because he fails to demonstrate an “actual
and immediate threat of future injury” and/or a
“concrete and particularized threat of future injury.”43
Plaintiff does not have constitutional standing
under provisions four and five. He has not applied for
a judicial position in any of the Family Courts or the
Courts of Common Pleas.44 In addition, plaintiff’s
applications for these positions would not have been
futile, because there is no party requirement
41

Mariana v. Fisher, 338 F.3d 189, 204 (3d Cir. 2003).
Del. Const. Art. IV, § 3.
43
D.I. 29 at 12, 15.
44
Although plaintiff applied for Family Court
Commissioner in 2009 and was not selected, he does not
contend this occurred due to the reasons asserted in his
compliant. D.I. 30 at A-08-09.
42

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

71a
constitutionally attached to either court.45 The only
constitutional restriction on these courts is that “not
more than a majority of one Judge shall be of the
same political party.”46
As for provisions one through three, which contain
the “major political party” requirement, defendant
fails to demonstrate that plaintiff does not have the
requisite standing. Plaintiff alleges that if he were
permitted to apply as an independent, he would
apply for a position on either the Delaware Superior
Courts or the Delaware Supreme Court. 47 As an
unaffiliated voter, he is barred from applying and
any such application would be futile.48 As a result
45

Del. Const. Art. IV, § 3; see also D.I. 30 at A-110-16
(documenting vacancies for judicial office in the Family Courts
and Courts of Common Pleas in which political affiliation is not
a requirement). In effect, this “bare majority” requirement
places no limitations on unaffiliated voters and only affects
judicial candidates of a major political party when the bare
majority of judicial offices on those courts is filled with
individuals affiliated with that major political party. In that
case, only those members of that major political party would be
excluded from consideration for judicial office.
46
Del. Const. Art. IV, § 3 (the “bare majority” requirement).
47
D.I. 10 at 4; see Nat’l Ass’n for the Advancement of
Multijurisdiction Practice, (NAAMJP) v. Simandle, 658 Fed.
Appx. 127, 133 (3d Cir. 2016) (The plaintiffs “alleged that they
would seek admission to the District Court bar if the rules were
changed to permit their admission. Since denial of their
application was assured, the rules inflict the alleged injury
regardless of whether [the plaintiffs] actually undertook the
futile application.”).
48
Del. Const. art. IV, § 3 (provision one, concerning the
Delaware Supreme Court, requires “two of said Justices shall be
of the other major political party,” and provision two, regarding
the Delaware Superior Courts, requires “the remaining members
of such offices shall be of the other major political party”).

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

72a
plaintiff has demonstrated an actual, concrete, and
particularized threat of present and future injury.49
2.

Prudential standing

Plaintiff has demonstrated constitutional standing
as to the “major political party” provisions of Article
IV, § 3 of the Constitution of the State of Delaware.
Defendant argues that summary judgment is,
nonetheless, appropriate, because plaintiff fails to
satisfy the second limit of prudential standing,
specifically that the constitutionality of Article IV, §
3 of the Delaware Constitution is an “abstract
question[] of wide public significance.”50 Defendant
challenges whether plaintiff actually intends to
become a judge in the State of Delaware and whether
judicial intervention is “necessary to protect his
rights[.]”51
Plaintiff responds by addressing each limit of
prudential standing:
Adams easily satisfies prudential standing
requirements. First, he brought his suit to
correct a wrong applicable to him as an
anticipated applicant for a judgeship,
notwithstanding that the ruling will also
affect others similarly situated. Second, this
is neither abstract nor a mere generalized
grievance. The injury is specific (loss of job
opportunity) and targeted (applicable to
members of the Delaware Bar seeking
judicial appointment, such as Adams).
49

Valley Forge Christian Coll. v. Ams. United for the
Separation of Church and State, 454 U.S. 464, 474-75 (1982).
50
D.I. 29 at 17.
51
Id. at 17-18.

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

73a
Third, Adams’ interests are within the “zone
of interests” protected by the First
Amendment freedom of political association,
as an individual may not be refused
government employment based on his or her
political affiliation.52
In addition, plaintiff argues that the requirements of
prudential standing are relaxed in First Amendment
cases.53 Plaintiff contends that the reason for this is
that “‘[f]acial challenges to overly broad statutes are
allowed not primarily for the benefit of the litigant,
but for the benefit of society—to prevent the statute
from chilling the First Amendment rights of other
parties not before the court.’” 54 In its reply brief,
defendant does not address any of plaintiff’s
arguments or the case law cited by plaintiff. 55
Instead, defendant repeats its argument and expands
on its theory that “[p]laintiff is litigating more of an
academic interest[.]”56
The court addresses the three prudential
limitations in order. First, although defendant
questions plaintiff’s motivations in bringing suit,
these questions do not overcome plaintiff’s
unrebutted argument that the political affiliation
requirements of judicial offices in Delaware directly
52

D.I. 35 at 11.
Id. at 10 (citing Virginia v. American Booksellers Ass’n,
484 U.S. 383, 392-93 (1988)) (“Where a party raises a facial
challenge to a law pursuant to the First Amendment, general
prudential standing requirements are relaxed.”).
54
Id. (quoting Sec’y of State of Md. v. Joseph H. Munson
Co., 467 U.S. 947, 958 (1984)).
55
D.I. 37 at 3-4.
56
Id.
53

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

74a
harm him as an unaffiliated voter. Second, defendant
argues that plaintiff asks the court “to decide
abstract questions of wide public significance[,]”57 but
this conclusory argument fails to consider that this
specific question—whether political affiliation can be
a requirement of government employment—is an
issue previously addressed by the United States
Supreme Court on numerous occasions.58 59 Third,
plaintiff argues, and defendant does not discuss, that
plaintiff’s rights to political affiliation are within the
“zone of interests” protected by the First Amendment. 60 Moreover, plaintiff’s argument, that the
Supreme Court has recognized that Article III
standing is not a requirement for prudential standing
in First Amendment cases,61 is unrebutted.62 Rather,
the prudential standing question is “whether [a
plaintiff] can be expected satisfactorily to frame the
issues in the case.”63
57

D.I. 29 at 17.
E.g., Rutan v. Republican Party of Illinois, 497 U.S. 62
(1990); Branti v. Finkel, 59 U.S. 507 (1980); Elrod v. Burns, 427
U.S. 347 (1976)
60
Compare D.I. 35 at 11, with D.I. 37 at 3-4. Plaintiff’s
grievance about the “major political party” affiliation
requirements of Article IV, § 3, is substantially similar to the
First Amendment rights of members of major political parties,
who are impacted by the “bare majority” requirements, so that
the rights of those individuals are within the same zone of
interests protected by the First Amendment.
61
Sec’y of State of Md. v. Joseph H. Munson Co., 467 U.S.
947, 958 (1984).
62
Compare D.I. 35 at 10, with D.I. 37 at 3-4.
63
Sec’y of State of Md. v. Joseph H. Munson Co., 467 U.S.
at 958.
58

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

75a
In light of the unrebutted prudential standing
arguments, under either standard discussed by
plaintiff, the court concludes that plaintiff can
satisfactorily frame the issues in this case. 64
Therefore, plaintiff has prudential standing to
challenge, on First Amendment grounds, the entirety
of Article IV, § 3 of the Constitution of the State of
Delaware.
B.
Whether a Judge is a Policymaking
Position, that is an Exception to the Right of
Political Affiliation in Employment Decisions.
The United States Supreme Court has established
that political belief and association are at the core of
First Amendment protections.63 Governmental
employees can not be terminated or asked to
relinquish their “right to political association at the
price of holding a job.”65 “Patronage . . . to the extent
that it compels or restrains belief and association, is
inimical to the process which undergirds our system
of government and is at war with the deeper
traditions of democracy embodied in the First
Amendment.”66 This right of political affiliation has
64

In fact, as a retired attorney on a state pension and for
whom filing suit is not likely to affect his prospect of future
earnings and employment (other than to limit his aspirations to
the bench), plaintiff, is in a far better position than other
Delaware attorneys to challenge these political affiliation
requirements. See D.I. 30 at A-15-16.
63
Elrod v. Burns, 427 U.S. 347, 356 (1976) (plurality
opinion).
65
Id. at 356-57.
66
Id. at 357; see also Branti v. Finkel, 445 U.S. 507, 51218 (1980) (the majority of the court reaffirming the opinion
established in Elrod).

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

76a
been expanded to government employees regarding
their promotion, transfer, and hiring.67
The “prohibition on encroachment of First
Amendment protections is not absolute,” and an
exception is recognized, which limits patronage
dismissals to “policymaking positions,” and requires
an analysis of the nature of the employee’s
responsibilities.68 The United States Court of Appeals
for the Third Circuit has found “a question relevant
in all cases is whether the employee has meaningful
input into decision making concerning the nature
and scope of a major government program.” 69 70 A
“policymaking position” is a narrow exception applied
when “the hiring authority can demonstrate that
party affiliation is an appropriate requirement for
the effective performance of the public office
involved.”71
The Court has recognized that “it is not always
easy to determine whether a position is one in which
political affiliation is a legitimate factor to be
considered.”72 In Branti v. Finkel, the United States
Supreme Court held that the position of Assistant
Public Defender was not entitled to the “policymaker”
exception.73 It found that the factors to be considered
67

Rutan v. Republican Party of Ill., 497 U.S. 62, 64, 75-80

(1990).
68

Elrod, 427 U.S. at 360, 367.
Peters v. Del. River Port Auth. of Pa. and N.J., 16 F.3d
1346, 1353 (3d Cir. 70) (internal citations omitted).
71
Branti, 445 U.S. at 518.
72
Id.
73
“His principal responsibility is to serve the undivided
interests of his client. Indeed, an indispensable element of the
effective performance of his responsibilities is the ability to act
69

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

77a
in determining whether a position is a policymaking
position are whether the position is simply clerical,
nondiscretionary or technical in nature, whether the
employee “participates in Council discussions, or
other meetings, whether the employee prepares
budgets, or has authority to hire or fire employees,
the salary of the employee, and the employee’s power
to control others and to speak in the name of
policymakers.”74 A difference in political affiliation is
only a proper factor in making employee decisions if
it is highly likely “to cause an official to be ineffective
in carrying out the duties and responsibilities of the
office.”75 Whether a position involves policymaking is
a question of law.76
Defendant contends that the role of the judiciary
falls within the policymaker exception under the
precedent of Elrod and Branti. 77 Defendant’s
argument rests heavily upon the holdings by other
circuit courts outside the Third Circuit,78 and the
United States Supreme Court’s holding in Gregory v.

independently of the government and to oppose it in adversary
litigation.” Id. at 519 (quoting Ferri v. Ackerman, 444 U.S. 193,
204 (1979)).
74
Brown v. Trench, 787 F.2d 167, 169 (3d Cir. 1986).
75
Waskovich v. Morgano, 2 F.3d 1292, 1297 (3d Cir. 1993).
76
St. Louis v. Proprotnik, 485 U.S. 112, 126 (1988).
77
See D.I. 29 at 20.
78
See Newman v. Voinovich, 986 F.2d 159 (6th Cir. 1993)
(Judges are “policymakers,” whose political affiliations may be
considered during the appointment process); Kurowski v.
Krajewski, 848 F.2d 767 (7th Cir. 1988) (Governor was entitled
to consider judge’s political affiliation in making a temporary
appointment).

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

78a
Ashcroft. 79 Plaintiff contends that the role of the
judiciary is not a policymaking position and directs
his argument upon separation of powers, the role of
the judiciary, and the Delaware Judges’ Code of
Judicial Conduct.80
The judiciary, although a very important role, is
not a policymaking position. A judge does not provide
“meaningful input into decision making concerning
the nature and scope of a major government
program.”81 82 To the contrary a judge’s role is “to
apply, not amend, the work of the People’s
representatives.” 83 The court may not speak on
policymakers behalf, sit in on Congressional
discussions, or participate in policymaking
meetings. 84 The role of the judiciary is not to
“hypothesize independently” legislative decision and
intent. 85 “Matters of practical judgment and
empirical calculation are for Congress” and the
judiciary has “no basis to question their detail beyond
the evident consistency and substantiality.” 86
Statutory interpretation, not statutory creation, is
79

See D.I. 29 at 20; Gregory v. Ashcroft, 501 U.S. 452, 466
(1991) (finding that legislative intent was not clear as to
whether the language “appointee on the policymaking level,”
included the judiciary).
80
D.I. 32 at 8-19.
81
Peters v. Del. River Port Auth. of Pa. and N.J., 16 F.3d
1346, 1353 (3d Cir. 82) (internal citations omitted).
83
Hayes v. Harvey, 874 F.3d 98, 111 (3d Cir. 2017) (citing
Henson v. Consumer USA Inc., 137 S. Ct. 1718, 1726 (2017)).
84
Brown, 787 F.2d at 169.
85
Matthew v. Lucas, 427 U.S. 495, 515 (1976).
86
Id. at 515-16.

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

79a
the responsibility of the judiciary and therefore, the
position of judge is not a policymaking position.
Cases from other circuits, on which defendant
relies, are distinguishable. 87 Both Newman and
Kurowski addressed situations which political
affiliation could be considered, but was not
constitutionally mandated.88 Neither case dealt with
a constitutional provision requiring a political
affiliation evaluation, nor a complete bar on hiring
individuals with minority political party beliefs. In
addition, the Court in Gregory analyzed the issue of
interpreting legislative intent of an exception as it
applied to the Age Discrimination in Employment
Act for positions “on the policymaking level.”89 The
Court addressed whether Congress intended the
judiciary be included in the exception, and whether a
Missouri law mandating that members of the
judiciary retire at the age seventy was permissible
under the Age Discrimination in Employment Act.90
The Court specifically did not decide the issue of
whether the judiciary was a policymaker, and based
its holding on the rationale that “people . . . have a
legitimate, indeed compelling, interest in
maintaining a judiciary fully capable of performing
the demanding tasks that judges must perform. It is
an unfortunate fact of life that physical and mental
87

D.I. 29 at 20.
See Newman, 986 F.2d at 159-60 (in the appointment of
interim judges, Governor considered candidates based on
recommendations from Republican Chairpersons); Kurowski,
848 F.2d at 769 (political affiliation could be considered by court
when assigning judges pro tempore).
89
Gregory, 501 U.S. at 455-57.
90
Id. at 455-64.
88

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

80a
capacity sometimes diminish with age. The people
may therefore wish to replace some older judges.”91
Thus, the phrase “on the policymaking level” is not
the equivalent of a “policymaking” position, on which
employment decisions based on political affiliation
may be made.
Delaware requirements are clear, that “[a] judge
should be unswayed by partisan interest” and
“family, social, or other relationships” should not
influence their conduct or judgment.”92 In particular,
Canon Four of the Delaware Judges’ Code of Judicial
Conduct specifically addresses that the judiciary
must refrain from political activity.93 A judge may not
act as a “leader or hold any office in a political
organization,” make speeches for political
organizations or candidates, or “engage in any other
political activity.” 94 The Delaware Judicial Code
clearly pronounces that political affiliation should not
affect the position.95
Political affiliation is not important to the effective
performance of a Delaware judge’s duties. 96 A
91
92

Id. at 472.
Del. Judges’ Code Judicial Conduct Rule 2.4 (A)-(B).

93

See Del. Judges’ Code Judicial Conduct Canon 4.
Id. at Rule 4.1 (A), (C) (with an exception for activities
“on behalf of measures to improve the law, the legal system or
the administration of justice”).
95
See Leatherbury v. Greenspun, 939 A.2d 1284, 1292 (Del.
2007) (“Judges must take the law as they find it, and their
personal predilections as to what the law should be have no place
in efforts to override properly stated legislative will.”); Ewing v.
Beck, 1986 WL 5143, at *2 (Del. Ch. 1986) (“It is a settled
principle that courts will not engage in ‘judicial legislation’ where
the statute in question is clear and unambiguous.”).
96
Branti v. Finkel, 445 U.S. 507, 518 (1980).
94

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

81a
Delaware judge may not participate in political
activities, hold any office in a political organization,
or allow political affiliation to influence his judgment
on the bench.97 Since political affiliation in Delaware
cannot “cause an official to be ineffective in carrying
out the duties and responsibilities of the office,” it
does not meet the standard for a “policymaking
position.”98
V. CONCLUSION
Article IV, § 3 of the Constitution of the State of
Delaware violates the First Amendment by placing
political affiliation restrictions on governmental
employment by the Delaware judiciary.99 The narrow
political affiliation exception does not apply, because
the role of the judiciary is to interpret statutory
intent and not to enact or amend it. 100 Precedent
relied upon by defendant is highly distinguishable
and not applicable to the current situation. 101
Further, the Delaware Judges’ Code of Judicial
Conduct clearly indicates that political affiliation is
not a valued trait of an effective judiciary.102
97

Del. Judges’ Code Judicial Conduct Rule 2.4 (B); 4.1
(A)(1), (C).
98
Waskovich v. Morgano, 2 F.3d 1292, 1297 (3d Cir. 1993).
99
These restrictions include the “major political party”
and “bare majority” requirements discussed herein.
100
Hayes v. Harvey, 874 F.3d 98, 111 (3d Cir. 2017) (citing
Henson v. Consumer USA Inc., 137 S. Ct. 1718, 1726 (2017)).
101
See Newman v. Voinovich, 986 F.2d 159, 159-60 (6th
Cir. 1993); Kurowski v. Krajewski, 848 F.2d 767, 769 (7th Cir.
1988); Gregory, 501 U.S. at 455-64.
102
See Del. Judges’ Code Judicial Conduct Canon 4.

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

82a
As a result of the findings herein, plaintiff’s motion
for summary judgment (D.I. 31) is granted, and
defendant’s motion for summary judgment (D.I. 28)
is denied. An appropriate Order shall follow.
Dated: May 23, 2018

/s/ Mary Pat Thynge
Chief U.S. Magistrate Judge

79561 • WILSON • APPENDIX E: DC MEMORANDUM OPINION 05-23-18

AL 8/19/19

83a
Appendix F
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE

__________
C. A. No. 17-181-MPT

__________
JAMES R. ADAMS,
v.

Plaintiff,

THE HON. JOHN CARNEY : Governor of the
State of Delaware, :
Defendant.

__________

JUDGMENT ORDER
Consistent with the reasoning contained in the
Memorandum Opinion of December 6, 2017 and
Clarified in the Reissued Opinion dated May 23,
2018, IT IS ORDERED and ADJUDGED that
plaintiff’s motion for summary judgment (D.I. 31) is
GRANTED, and defendant’s motion for summary
judgment (D.I. 28) is DENIED.
Dated: May 23, 2018

/s/ Mary Pat Thynge
Chief U.S. Magistrate Judge

79561 • WILSON • APPENDIX F: DC JUDGMENT ORDER 05-23-18

AL 8/20/19

